<html>
<title> - TERRORIST MARCH IN IRAQ: THE U.S. RESPONSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
               TERRORIST MARCH IN IRAQ: THE U.S. RESPONSE

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2014

                               __________

                           Serial No. 113-190

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
88-829                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14                               LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida 
LUKE MESSER, Indiana--resigned 5/
    20/14 noon 
SEAN DUFFY, Wisconsin
    added 5/29/14 
CURT CLAWSON, Florida 
    added 7/9/14 


     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Brett McGurk, Deputy Assistant Secretary for Iraq and Iran, 
  Bureau of Near Eastern Affairs, U.S. Department of State.......     6
Ms. Elissa Slotkin, Performing the Duties of the Principle Deputy 
  Under Secretary of Defense for Policy, U.S. Department of 
  Defense........................................................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Brett McGurk: Prepared statement.............................    10
Ms. Elissa Slotkin: Prepared statement...........................    24

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    69


               TERRORIST MARCH IN IRAQ: THE U.S. RESPONSE

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:18 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. This 
morning we consider the U.S. response to the terrorist takeover 
in Iraq.
    Nearly 6 months ago, the committee held a hearing. The 
title of that hearing was ``Al-Qaeda's Resurgence in Iraq: A 
Threat to U.S. Interests.'' Then, the administration testified 
at that hearing that ISIS had begun to shift resources from 
Syria to Iraq in early 2013. That it had tripled its suicide 
attacks in that year and that it planned to challenge the Iraqi 
Government for control of western Iraq and Baghdad. That is 
what we heard 6 months ago.
    The administration testified that it had become aware that 
ISIS had established armed camps, staging areas and training 
ground in Iraq's western desert in the summer of 2013, and that 
ISIS leader Abu Bakr al-Baghdadi had again threatened to attack 
the United States of America. The administration told us that 
ISIS must be, in their words, ``constantly pressured, and their 
safe havens destroyed,'' and that its objective was ``to ensure 
that ISIS can never again gain safe haven in western Iraq.'' 
However, what the administration did not say was that the Iraqi 
Government had been urgently requesting drone strikes against 
ISIS camps since August 2013. That there had been the 
opportunity to use drone strikes on those camps, both in 
eastern Syria before they came over the border and to use drone 
strikes as their units moved across the desert. And as you 
know, drones can hone in and can see what is going on on the 
ground, can see these units traverse from city to city. These 
repeated requests unfortunately were turned down. I added my 
voice for drone strikes as ISIS convoys raced across those 
deserts from city to city.
    Since that last hearing, ISIS has done over those 6 months 
precisely what the administration predicted it would. It has 
taken over most of western Iraq. It has turned its sights on 
Baghdad and it may be preparing to launch attacks against the 
U.S. But again, no drone strikes against those columns. Never 
has a terrorist organization itself controlled such a large 
resource-rich safe haven as ISIS does today. Never has a 
terrorist organization possessed the heavy weaponry, the cash, 
the personnel that ISIS does today, which includes thousands of 
Western passport holders.
    The Iraqi population is terrorized. They have suffered mass 
executions and harsh sharia law. Last week, the remaining 
members of the ancient Christian community in Mosul fled on 
foot in face of ISIS' demand that they convert or face death.
    To be clear, ISIS' takeover has been aided by Prime 
Minister Maliki's malfeasance and incompetence. Maliki has 
disastrously failed to reconcile with key Sunni groups. Many, 
including myself and Ranking Member Engel, urged him to form an 
inclusive government--and this was quite some time ago and on 
several occasions--so that ISIS could not exploit legitimate 
Sunni grievances. Maliki has only proven himself to be a 
committed sectarian, certainly no statesman. It is time for 
Iraqis to move forward in forming a government that serves the 
interests of all Iraqis.
    What started as a crisis in Syria has become a regional 
disaster with serious global implications, including credible 
threats of international terrorism, humanitarian disaster, and 
upward pressure on energy prices in a fragile global economy. 
Meanwhile, terrorist forces and the Iranian Government are 
gaining power at the expense of regional security and power at 
the expense of friendly governments.
    Of course only Iraqis can control their future. Only they 
can make the decision to replace Maliki. And the performance of 
the battlefield of certain Iraqi units was abysmal. That is to 
be expected when you put your son in charge and sack the 
officer corps and replace them with cronies.
    Americans have spent enough blood and treasure in Iraq, and 
that is exactly why the administration should have taken the 
opportunity to inflict decisive damage on ISIS from the air 
through drone strikes while its fighters were encamped in the 
desert months ago.
    This morning we are joined by a senior State Department 
official who has been in Baghdad for several weeks, and an 
official from the Department of Defense involved in the current 
assessment of Iraqi security forces, to learn of the path 
forward in dealing with this national security emergency.
    And I will now turn to our ranking member, Mr. Engel of New 
York, for any opening comments.
    Mr. Engel. Mr. Chairman, thank you for holding this 
important hearing about the latest developments in Iraq. In 
recent months, a path of violence and chaos has burned across 
the Middle East. The unrest has left thousands of dead in its 
wake and driven tens of thousands from their homes. A civil war 
in Syria has spilled across the border and now Iraq teeters on 
the brink.
    Since December, the Islamic State of Iraq and the Levant, 
ISIL or ISIS, has marched across Iraq with lethal efficiency. 
Fallujah, Ramadi and Mosul have fallen under their control. 
Hundreds of Iraqi soldiers have been killed or have laid down 
their weapons and the military equipment they left behind. Some 
even supplied by the United States is now in the hands of these 
fanatics.
    The border between Iraq and Syria is gone, ISIS is 
advancing toward the Jordanian border, and ISIS' leaders have 
declared an Islamic caliphate, promising to rule with a brand 
of barbarism out of the darkest chapters in human history. ISIS 
is an existential threat to our allies in the region and it is 
a threat to the United States. We have seen this story before 
and we know how it ends.
    When Russia withdrew from Afghanistan in the late 1980s 
that country was allowed to become a no man's land. Violent 
extremists found a safe haven in which to strengthen their 
ranks, train their recruits, and plan attacks on the United 
States and our allies. We cannot allow Iraq to follow the same 
path to become another safe haven from which another September 
11th could be launched.
    So how are we going to meet the challenge? In my mind, we 
need to use all the tools at our disposal because in the end 
there is no military solution to this problem. We need to see 
real political changes in Iraq, more inclusive policies, and a 
greater effort to avoid sectarian conflict. I have real doubts 
that Prime Minister Maliki can lead Iraq into this new era. In 
fact, Maliki must go and the sooner the better.
    I have real concerns about Iran's support for the Iraqi 
regime. Even if the United States and Iran seem to share a 
mutual concern over ISIS, I don't see how Iranian and American 
goals can be aligned either in the short term or the long term. 
I don't think the U.S. should deal with Iran in this regard. We 
also need to bear in mind that this is not solely an Iraqi 
problem. While ISIS grew out of al-Qaeda in Iraq, ISIS grew in 
strength and numbers while fighting in Syria.
    ISIS is a regional problem. This is a spillover from the 
Syrian civil war and fighting ISIS will require a regional 
solution. The right time to train and equip the moderate Syrian 
opposition was well over a year ago. That is when I introduced 
the Free Syria Act. It would have assisted moderate rebels to 
fight against both the Assad regime and the extremist elements 
of the opposition, like ISIS.
    I am glad that a few weeks ago the administration announced 
its support for a $500 million training and equipment program 
for the moderate Syrian opposition. But we waited so long, and 
by now ISIS has gained so much territory and momentum they are 
far more difficult to stop than they were 1 year, 1\1/2\ years 
or 2 years ago.
    I cannot help but wonder what would have happened if we had 
committed to empowering the moderate Syrian opposition last 
year. Would ISIS have grown as it did? Would the opposition 
have been able to apply enough pressure to Assad to compel him 
to a diplomatic transition? And by the way, we passed a bill of 
the House yesterday, unanimously, slapping sanctions on 
Hezbollah. Hezbollah has moved in as a puppet of Iran and they 
have moved into Syria on the side of Assad and have helped tip 
the balance in Assad's favor.
    The hypotheticals and the what-ifs break my heart, because 
even if do the right thing now it will mean small consolation 
to the orphan child, the grieving mother or the family in a 
refugee camp in Syria. I supported the President's decision to 
send assessment teams to Iraq, but I am cautious about future 
action. We cannot end up in another sectarian quagmire in Iraq.
    And so I am interested in learning about the 
administration's vision for how to meet this challenge. I am 
grateful to our witnesses for testifying today and for 
consulting with Congress about our next steps. We must be 
partners in moving forward as we determine what the U.S.'s role 
should be in Iraq and that Congress must play an important 
role.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel. We go now for a 
minute to Ms. Ros-Lehtinen of Florida, chairman of the Middle 
East and North Africa Subcommittee.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Today's 
hearing is on the terrorist march in Iraq. This is not 
something new or something that caught us unaware. This will be 
the second time that this committee has had Mr. McGurk testify 
on the deteriorating situation in Iraq since February.
    Sadly, it is clear that the situation went from worse to 
just about as bad as it can get, and I am interested in hearing 
how the administration has adjusted its policies since then. 
Because the three steps that he outlined for us last time--
pressing the government to develop a holistic policy that would 
isolate the extremists; supporting the Iraqi security forces 
through accelerated military assistance and information and 
intelligence sharing; and mobilizing the Sunni population 
against ISIL have all failed to stop ISIL and the near collapse 
of Iraq.
    ISIL continues to advance its cause of an Islamic State 
that runs from Baghdad to Lebanon, and where Christians 
especially are being targeted; either fleeing, forced to 
convert or be killed. We have been woefully inadequate in our 
response to this crisis. This committee has repeatedly called 
on the administration to do more, to get more engaged and to be 
decisive, because it has been paralyzed by inaction. The threat 
of ISIL is very real and imminent for Iraq and the region, and 
it won't go away by just wishing it away.
    Thank you, Mr. Chair.
    Chairman Royce. Thank you. We now go to Mr. Ted Deutch of 
Florida, ranking member of the Middle East and North Africa 
Subcommittee.
    Mr. Deutch. Thank you, Chairman Royce and Ranking Member 
Engel, for holding today's critical hearing, and to our 
witnesses for appearing today on behalf of the administration. 
Deputy Assistant Secretary McGurk, I know that you have just 
returned from several weeks in Iraq, and I hope that you will 
be able to provide us with an update on efforts to encourage 
political reconciliation.
    The violence perpetrated by ISIL in its quest to establish 
an Islamic caliphate in Syria and Iraq is terrorizing these 
nations and according to the U.N., over 1,500 people were 
killed in the month of June in Iraq. And the news of this 
weekend's horrific persecution of Christians in Mosul adds 
another layer to this sectarian conflict.
    With financial independence, ISIL answers to no one. Having 
been disavowed even by al-Qaeda, it is hard to imagine a 
terrorist organization being so vile that the vile al-Qaeda 
doesn't want to be associated with it. But as ISIL continues 
its march toward Baghdad, how confident are we that the Shiite 
stronghold can withstand repeated attacks? What are the 
regional players doing to influence the outcome of current 
events, and what are we doing to ensure the stability of our 
regional partners?
    I would also hope that you will address what more we can or 
should do to convince Prime Minister Maliki that ISIL can't be 
defeated without some sort of reconciliation process that 
reverses his attempts to marginalize Sunnis. Is he willing to 
do that? Will he ever be willing to do that and how does this 
proceed if he doesn't? And I will look forward to the testimony 
from both of you, and I yield back, Mr. Chairman.
    Chairman Royce. We now go to Mr. Ted Deutch of Texas, 
chairman of the Subcommittee on Terrorism, Nonproliferation, 
and Trade.
    Mr. Poe. Well, he is not the chairman yet, Mr. Chairman.
    Chairman Royce. Ted Poe. Excuse me.
    Mr. Deutch. I much prefer Florida also, Mr. Chairman.
    Mr. Poe. Thank you, Mr. Chairman.
    ISIL is blitzkrieging across the north of Iraq and it has 
its sights set on Baghdad. ISIL is made up of a bunch of bad 
outlaws, and in a hearing I held on this issue last week, our 
witnesses were unanimous in the belief that Prime Minister 
Maliki just cannot lead Iraq out of this crisis. He needs to 
go, the sooner the better. Also the Iranian influence needs to 
end in the Iraqi Government.
    The United States should not strengthen Maliki's hand by 
providing unconditional military assistance. That is not the 
answer. I want to know what the administration's strategic plan 
is to prevent the rise of ISIL. What is the plan, if any? 
Mending badly damaged relations with the Saudis and the 
Jordanians would be a good place to start.
    And finally, the MEK are still held hostage in Iraq. I want 
to know why we have so far failed to settle them in third 
countries including our own. While the U.S. has dithered, 
people in Liberty and Ashraf have been murdered. I yield back.
    Chairman Royce. We will go to Brad Sherman from California, 
ranking member of the Terrorism, Nonproliferation, and Trade 
Subcommittee.
    Mr. Sherman. We see emerging from Beirut to Basra an 
infertile crescent where militias loyal to ethnic or religious 
groups are more powerful than governments, where there is 
warfare, and even when there is peace it is an unstable peace 
with militias in real control no matter what the map says about 
nation states. It is a three-way contest at least between the 
moderate Sunni, the Shiite alliance and extremist Sunni.
    I believe that the Shiite alliance led by Iran is the 
greater threat to the United States. This does not mean that we 
should not seek to weaken ISIS. Maliki is not a good guy just 
because we installed him. His approach to governing is as 
responsible as any other factor for ISIS' emergence, and in the 
absence of ISIS pressure he would not have changed at all. Now 
we need a new Prime Miniser in Iraq. A distant second best 
would be some sort of radically changed Maliki platform.
    Maliki allows his airspace to be used for planes flying to 
Syria from Iran carrying weapons and thugs. He has been 
increasingly dependent on Iran. We do not want to be his air 
force. We do not want to see ISIS expand. We have got a tough 
problem.
    Chairman Royce. Indeed. We are joined this morning by the 
Deputy Assistant Secretary for Iraq and Iran, Mr. Brett McGurk, 
and the Principal Deputy Assistant Secretary of Defense for 
International Security Affairs, Ms. Elissa Slotkin.
    Ms. Slotkin. It is Elissa Slotkin.
    Chairman Royce. Elissa Slotkin.
    Ms. Slotkin. Thank you.
    Chairman Royce. Thank you, Elissa.
    Prior to his current assignment, Mr. McGurk served as a 
special advisor to the National Security Staff and a senior 
advisor to Ambassadors Ryan Crocker, Christopher Hill, and 
James Jeffrey in Baghdad. He also served as a lead negotiator 
and coordinator during bilateral talks with the Iraqi 
Government in 2008.
    Since July 2013, Elissa Slotkin has been performing the 
duties of the Principal Deputy Under Secretary of Defense for 
Policy. Previously, Ms. Slotkin worked at the State Department 
on Iraq policy and served on the National Security Council 
Staff as director of Iraq.
    Without objection, the witnesses' full prepared statements 
will be made part of the record. Members will have 5 calendar 
days to submit statements or questions or any extraneous 
materials that they wish to put into the record. And Mr. 
McGurk, if you would please summarize your remarks, we will 
have you testify first.

 STATEMENT OF MR. BRETT MCGURK, DEPUTY ASSISTANT SECRETARY FOR 
IRAQ AND IRAN, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. McGurk. Thank you. Good morning, Chairman Royce, 
Ranking Member Engel, and members of this committee. I want to 
thank you for inviting me to discuss the situation in Iraq with 
a focus on the U.S. response since the Islamic State of Iraq 
and the Levant, or ISIL, attacked Mosul nearly 7 weeks ago.
    Let me first review the bidding on why this matters, as 
this committee well knows. ISIL is al-Qaeda. It may have 
changed its name, it may have broken with senior al-Qaeda 
leadership such as Ayman al-Zawahiri, but it is al-Qaeda in its 
doctrine, ambition, and increasingly, in its threat to U.S. 
interests. In fact, it is worse than al-Qaeda. Should there be 
any question about the intentions of this group, simply read 
what its leader Abu Bakr al-Baghdadi says. And it is important 
to pay attention to what he says because we cannot risk 
underestimating the goals, capacity, and reach of this 
organization.
    Baghdadi, in May 2011, eulogized the death of Osama bin 
Laden and promised a violent response. ISIL training camps in 
Syria are named after Osama bin Laden. In his audio statements, 
Baghdadi regularly issues veiled threats against the United 
States promising a direct confrontation. And in his feud with 
al-Zawahiri, Baghdadi clearly is seeking to lead the global 
jihad.
    Additionally, ISIL is no longer simply a terrorist 
organization. It is now a full-blown army seeking to establish 
a self-governing state through the Tigris and Euphrates valley 
in what is now Syria and Iraq. It now controls much of eastern 
Syria. In January, in Iraq it moved into Anbar Province taking 
control of Fallujah, and, on June 10th, it moved on Mosul.
    I arrived in Erbil, about 80 kilometers east of Mosul, on 
June 7th, and I will begin there. In meetings with local 
officials from Mosul and with Kurdish officials on June 7th, we 
received early indications that ISIL was moving in force from 
Syria into Iraq and staging forces in western Mosul. We 
immediately asked and received permission from Kurdish leaders 
to deploy peshmerga forces in the eastern side of the city, but 
the government of Baghdad did not share the same sense of 
urgency, and did not approve the deployments.
    Iraqi military commanders promised to send nine brigades of 
force to Mosul in response to our warnings, and we stressed, 
however, that the forces would not arrive in time. On June 9th, 
the situation remained extremely tense, and we continued to 
urge the immediate deployment of additional security forces to 
protect against an ISIL attack from west to east.
    In the early morning of June 10th, ISIL launched a complex 
suicide bomb attack across a strategic bridge and poured forces 
into the eastern part of the city. Iraqi resistance totally 
collapsed, which led to a panic and a snowballing effect 
southward through the Tigris valley and through the cities of 
Tikrit, Samarra and into Balad.
    The result was catastrophic. Five Iraqi divisions nearly 
dissolved, and the approaches to Baghdad were immediately under 
threat. I flew to Baghdad first thing that morning with a focus 
on ensuring that our people were safe, and that the northern 
approaches to the city of Baghdad were bolstered. My written 
testimony sets forth in detail the critical elements of our 
immediate crisis response.
    We first made certain that our people would be safe, 
including contractors working on bases outside of Baghdad who 
were evacuated with the help of the Iraqi air force. At the 
Embassy and the airport we rebalanced staff to manage the 
crisis, and brought in additional Department of Defense 
resources to ensure the security of our facilities.
    In parallel, importantly, and at the President's direction, 
we worked to urgently to improve our intelligence picture 
throughout western and north central Iraq, surging surveillance 
flights from one per month to nearly 50 per day; establishing 
joint operations centers and deploying special operations 
forces to assess Iraqi units particularly around the capital of 
Baghdad. These intelligence and security initiatives were 
undertaken in parallel with regional diplomacy led by Secretary 
Kerry to better focus attention on this serious threat.
    We finally sought to stabilize the Iraqi political process, 
recognizing that this attack took place at the most vulnerable 
moment in that process following national elections that were 
held on April 30th in which nearly 14 million Iraqis voted, but 
before the formation of a new government. This process of 
forming a new government remains extremely challenging but it 
now has some traction.
    A new speaker of Parliament was chosen last week, 
overwhelmingly with the support of all major communities in 
Iraq, and Iraqis are now proceeding along the constitutional 
timeline to choose a new President and Prime Miniser. The 
current situation in Iraq remains extremely, extremely serious.
    ISIL remains in control of Mosul and it is targeting all 
Iraqis--Sunni, Shia, Christian, Kurds, Turkmen, Yazidis, 
Shabaks and everybody who disagrees with its twisted vision of 
a 7th century caliphate. It is also joined in an unholy 
alliance with militant wing of the former Ba'ath Party known as 
the Naqshbandi network, and with some former insurgent groups 
such as the Islamic Army of Iraq.
    Going forward, the Iraqis, with our support, must seek to 
split the latter groups from ISIL and isolate ISIL from other 
hardcore militant groups from the population. The platforms 
that we have established through the immediate crisis response 
are now providing additional information to inform the 
President and our national security team as we develop options 
to further protect our interests in Iraq.
    Any future decisions in this regard will be made in full 
consultations with this committee and the Congress. Any efforts 
we are to take, moreover, must be in conjunction with Iraqi 
efforts to isolate ISIL from the population. This is because, 
while we have a very serious counterterrorism challenge in 
Iraq, Iraq has a very serious counterinsurgency challenge and 
the two are inextricably linked.
    Based on my last 7 weeks on the ground in Iraq, there is 
now a clear recognition by Iraqis from all communities that 
substantial reforms must be undertaken and undertaken urgently. 
This will require the formation of a new government together 
with the restructuring of the security services.
    The emerging consensus in Iraq, which we can fully support, 
is a functioning federalism consisting with Iraq's 
Constitution, adaptive to the new realities on the ground, and 
based on the following five principles. First, local citizens 
must be in the lead in securing local areas. Second, local 
citizens defending their communities, however, must be provided 
full state benefits and resources, perhaps modeled along the 
lines of a national guard type force structure to secure 
provincial areas, and areas in which ISIL is seeking to gain 
further footholds.
    Third, the Iraqi army should focus on Federal functions 
such as protecting international borders and rarely deploy 
inside cities. It should however provide overwatch support for 
local forces where they confront ISIL, which is able to 
overmatch tribal forces in areas such as Ninewah and Anbar 
Province. Fourth, there must be close cooperation between 
local, regional, and national security services to gradually 
reduce operational space for ISIL, particularly in Ninewah 
Province.
    And finally, the Federal Government, through its new 
Parliament and a new cabinet, which will be established, must 
work diligently on a package of reforms to address legitimate 
grievances from all communities, and ensure adequate resources 
to restructure security services. These five principles could 
begin to address many of the core grievances in the Sunni 
majority areas of Iraq while also, importantly, denying space 
for ISIL to operate and thereby protect the Shia majority and 
other vulnerable groups from ISIL attacks.
    Restoring stability and degrading ISIL will require smart, 
integrated central or regional, and provincial approaches led 
by a new Iraqi Government with an appropriate level of support 
and assistance. I can report that Iraqi leaders from all 
communities have asked for this assistance in implementing such 
a program, and General Austin, commander of CENTCOM, will be in 
Iraq tomorrow to further assess the situation, and discuss 
concrete ways in which our assistance might be effective.
    This model of a functioning federalism is achievable and is 
essential if we hope to deny space for ISIL within the borders 
of Iraq. I look forward to discussing more details in the 
answers of your questions, and once again I want to thank this 
committee for allowing me the opportunity to address you here 
today.
    [The prepared statement of Mr. McGurk follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you.
    Elissa?

 STATEMENT OF MS. ELISSA SLOTKIN, PERFORMING THE DUTIES OF THE 
 PRINCIPLE DEPUTY UNDER SECRETARY OF DEFENSE FOR POLICY, U.S. 
                     DEPARTMENT OF DEFENSE

    Ms. Slotkin. Thank you. Chairman Royce, Ranking Member 
Engel, distinguished members of the committee, I appreciate the 
opportunity to come and talk about the Department of Defense 
role particularly. I won't cover too much ground other than to 
just foot stomp the point that Brett has made.
    The U.S. really does have a vital national security 
interest in ensuring that Iraq or any other country does not 
become a safe haven for terrorists who could threaten the U.S. 
homeland, U.S. citizens, U.S. interests abroad, partners or 
allies. As the President has said, ISIL's advance across Iraqi 
territory in recent weeks and particularly its ability to 
continue to establish a safe haven in the region poses a threat 
to U.S. interests and to the greater Middle East.
    And we do not restrict that view just to the specific 
geographic boundaries that are on the map. Just to go over the 
things that the Department of Defense is doing, the situation 
on the ground as Brett described is extremely complex and 
fluid. We are therefore taking a very responsible, deliberate 
and flexible approach to the crisis. But I do want to be clear, 
there will not be an exclusively military solution to the 
threat posed by ISIL. Iraqis must do the heavy lifting. In the 
meantime, the Department of Defense remains postured should the 
President decide to use military force as part of a broader 
strategy.
    Our immediate goals as announced on June 19th, are 1) to 
protect U.S. people and property in Iraq; 2) to gain a better 
understanding of how we might train, advise and assist the 
Iraqi security forces should we decide to do so; and number 3) 
to expand our understanding particularly via intelligence of 
ISIL.
    All three are critical to any future U.S. strategy vis-a-
vis Iraq, and to that end we have done the following things. 
One, as Brett mentioned we have added forces to protect our 
people. The safety of U.S. citizens and personnel throughout 
Iraq is our highest priority. The Department of Defense is 
meeting all the requests that have come in from the Department 
of State for security, extra security for our Embassy and at 
the airport.
    As described in our War Powers Notifications we have sent a 
Fleet Antiterrorism Security Team--we call that a FAST team, a 
crisis response element--and additional military assets and 
personnel to reinforce security at the diplomatic facilities. 
The Secretary of Defense also ordered the amphibious transport 
ship, USS Mesa Verde, into the Arabian Gulf. Its presence adds 
to the other naval ships that are there including the U.S. 
aircraft carrier, USS George HW Bush, and provides the 
President additional options to protect American citizens and 
interests in Iraq should he choose to use them, as Brett 
mentioned, ISR, Intelligence, Surveillance and Reconnaissance 
assets.
    So as part of our ramping up effort we have significantly 
surged ISR capabilities into Iraq, as Brett mentioned, over 50 
sorties a day compared to one a month in previous months. At 
the request of the Government of Iraq, we have ramped it up as 
well as our information sharing initiatives with the Iraqis. 
These sorties over Iraq provide us a much better understanding 
of ISIL operations and disposition and allow us to help the ISF 
counter ISIL.
    We are now capable of around-the-clock coverage of Iraq and 
have been focusing particularly on ISIL controlled activities--
territory, excuse me--as well as in and around Baghdad. U.S. 
assessment teams and joint operation centers, as you know we 
have put in nearly 300 additional U.S. military advisors who 
have gone in specifically to assess and evaluate how we might 
better train, advise and assist the Iraqi security forces.
    These are small teams of special forces members who are 
working to evaluate the Iraqi security forces particularly in 
and around Baghdad. They are armed for self defense but they do 
not have an offensive mission. The two joint operation centers 
as Brett also mentioned, one in Baghdad and one in northern 
Iraq in Erbil, have been established to help coordinate and 
support efforts on the ground, give us a better picture of what 
is happening.
    One quick word about the assessments. I know that is of 
interest. Secretary Hagel and Chairman Dempsey received the 
draft assessment from CENTCOM last week. Department leaders are 
taking a deliberate approach in reviewing this pretty lengthy 
assessment. These assessments will inform recommendations to 
the President. Meanwhile, additional assessing work goes on in 
and around Baghdad with respect to the developing situation on 
the ground.
    In closing, I just want to reiterate again that we believe 
that we have a vital security interest in ensuring that Iraq 
does not become a permanent safe haven for terrorists who could 
threaten the U.S. homeland. Look forward to your questions to 
that end.

    [The prepared statement of Ms. Slotkin follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                              ----------                              

    Chairman Royce. Well, I thank both of our witnesses. Before 
going to questions, I would like to welcome our newest member 
who is here today with us and that is Congressman Curt Clawson 
representing the 9th (sic) district of Florida. While he is the 
newest member of the House, he is not new to international 
issues as demonstrated by his fluency in four languages and the 
time he has resided in six countries abroad.
    His previous work as CEO of a global manufacturing company 
and his broad understanding of different cultures will be an 
asset, we believe, in the committee's work to promote freedom 
and U.S. interests around the world. And I would also note that 
his appointment brings our committee delegation from the state 
of Florida to seven members, second only to the eight members 
hailing from the great state of California.
    In terms of questioning, if we could start now with Mr. 
McGurk. As I mentioned in my remarks, you testified before the 
committee in February, and you told us of ISIS' plan to take 
control of western Iraq and to challenge the Iraqi's Government 
control of Baghdad. And you reported that it was the 
administration's objective to prevent ISIS from ever having a 
sanctuary in western Iraq again.
    There were countless other warning signs, and I know that 
you as Deputy Assistant Secretary and others in the U.S. 
Government were sounding the alarm. And your testimony was 
absolutely correct. We did see this coming, and that makes it 
even more troubling that the administration didn't do what was 
necessary to prevent ISIS from taking over such a large swath 
of Iraq. And specifically, the Iraqis asked multiple times for 
drone air strikes against clearly identifiable ISIS targets in 
the desert.
    Someone in our Embassy brought this up as well. The 
agitation was for strikes on terror camps, and we know the 
administration rejected those requests. Now no one likes 
Maliki, but given this ISIS threat and given the 
administration's stated goal of preventing an ISIS sanctuary in 
western Iraq, why didn't we support at least in this limited 
way attacks that would have done damage to these columns or to 
the encampments?
    Mr. McGurk. Thank you, Mr. Chairman. Let me try to correct 
the record on a few things. And again I thank you for the 
opportunity to testify before the committee in February, and I 
think what I described was when we really started to see this 
problem emerge over the course of last summer.
    And the first principle and the President's policy is that 
we want to enable local actors to be able to secure their 
sovereign space as best we can. That was also the desire of the 
Iraqi Government. The Iraqi Government wanted to act on its own 
with our assistance in enabling functions. We worked through 
the summer and fall through our own surveillance, and also by 
showing the Iraqis how they could use their capability to be 
able to target some of these sites.
    They have a platform called a King Air which does 
persistent intelligence. They have a platform called a Caravan 
Aircraft which can fire Hellfire missiles. And we were able, 
with our information, to be able to kind of jerry-rig those 
systems in a way that they were quite effective, and they were 
effective against those camps.
    The formal request from the Iraqis for direct U.S. air 
support did not come in a formal way until May, and it came on 
a visit with General Austin. And I was there with General 
Austin during that visit, and then a subsequent phone call 
between the Prime Minister and the Vice President. And since 
that time obviously we have been looking at various options.
    But the first principle was to enable the Iraqis to deny 
safe havens and camps and sanctuaries within their sovereign 
space. They, of course, faced a significant problem across the 
Syrian border, which was increasingly in control of ISIS as of 
over the last 3 months of last year, and the border 
increasingly became under threat.
    But the first principle was to enable the Iraqis. That was 
something the Iraqis also wanted and that was through the 
Hellfire missiles, through the Caravan Aircrafts, and through 
the persistent ISR. But the formal request for direct U.S. air 
support came in May.
    Chairman Royce. Well, let me just say that we already have 
experience in Afghanistan with the fact that when you are 
dealing with suicide bombers or people who want to martyr 
themselves in the attack, the one thing on the ground, for 
example, the Afghans are looking for our air support.
    Traditionally, secular militaries run away in the face of 
people trying to lose their own life in an attack and they call 
in air support. It has been a problem. I mean I have talked to 
the Italians about this. What do they want? What did they ask 
for? Drones above that could give air support for their troops 
in Afghanistan.
    So when you have got a situation like this, yes, you have 
got Hellfire missiles but the Iraqis were trying to fire these 
from retrofitted Cessna airplanes. In an environment like that 
when you see this coming and you know that air support, 
psychologically, for infantry on the ground in this kind of an 
environment has been such an issue in Afghanistan when you are 
up against jihadists, why wouldn't we?
    It wasn't just that the request was coming from the Iraqi 
Government. As I say, some in the Embassy pushed for this. 
Certainly I raised this a number of times. I am just trying to 
figure out why, when you can monitor something with the eyes of 
a drone that can go in and actually see below it that you have 
in the jeep the flag of al-Qaeda waving and a column moving 
across the desert, why that asset wouldn't be deployed as these 
troops are coming out of Syria, or why you wouldn't take the 
encampment and come in and take out that encampment.
    I understand that this request went all the way up in the 
administration and was turned down, and I am trying to get to 
the bottom of why.
    Mr. McGurk. Again I want to just answer from my own 
personal recollection, as first, the camps, the Iraqis were 
very effective against the camps with the Hellfires, 
particularly over the latter course of 2013. ISIL kind of 
poured out of the camps, particularly when they started to be 
hit, and moved into the cities.
    Chairman Royce. But again this is with a retrofitted Cessna 
airplane, at least this is what I understand from the Iraqis 
that they were trying to deal with in order to express that. 
Can you imagine how effective it would have been with 
something, a platform that could really deliver something more 
than a Hellfire?
    Mr. McGurk. I also just want to correct the record. When 
the request did come in May, the formal request for direct air 
support, that request never went up, and has been denied. In 
fact, it is still under active consideration. There has never 
been a denial.
    Chairman Royce. That is like saying--if I could interrupt 
you. Because I remember Eliot Engel making the point 3 years 
ago about support for the Free Syrian Army when there were no 
foreign fighters in Syria and him laying out the argument that 
foreign fighters were going to come in the absence if we didn't 
support the Free Syrian Army. That is like saying, well, that 
is still under active consideration.
    Well, yes, but after 3 years of not effectively getting 
engaged in a major way, the clock begins to run out and things 
happen on the ground, and that is what has happened with ISIS. 
We have watched it come into a vacuum over a 3-year period, 
establish itself on the border with Iraq, no action being taken 
against that encampment, no effective support to the Free 
Syrian Army to do something about it, then we watched it go 
from city to city across Iraq without it being hit from the air 
with drones, despite the requests that I know were being made. 
This is the reason for, at least my part, concern about lack of 
action here.
    Mr. McGurk. I was just, on Thursday of last week before 
flying back, I was in our new Joint Operations Center which we 
set up in Baghdad. And I can say that the information we have 
now on these networks is night and day from where it was in May 
when the request from the Iraqis first came in. Therefore the 
options that are being developed for the President will be much 
more concrete and specific than anything we could have had 
before, and there is a significant risk, Mr. Chairman, of 
taking any military action without that level of granularity.
    So clearly, when the request came in May, we were not able 
to do anything immediately in any event yet we now have a much 
better picture which will inform eventual decisions from the 
President, and any decisions in that regard which would be made 
or might be made or considered would be in the full 
consultation with this committee and the Congress.
    Chairman Royce. Right. But ISIS now has the treasury of the 
Central Bank in Mosul. So they have at their disposal probably 
$\1/2\ billion.
    Mr. McGurk. They are very good at propaganda. They put out 
that they got $400 million in the first week or so. We don't 
think that is particularly true, but they are a self-sustaining 
organization and they are flush with resources, cash and 
equipment, no question.
    Chairman Royce. I am out of time. I will go to Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman. And Brett and 
Elissa, thank you for your testimony and for your good work. I 
want to talk a little bit about the division in Iraq or keeping 
Iraq whole. On the one hand when you look at some of these 
borders in the Middle East they were all done by the 
colonialists, and I have often felt that why should we be 
obligated to maintain those borders? Iraq is not a real state. 
It is was slapped together. You have got the Kurds, you have 
got the Shia and the Sunni who really don't want to be part of 
each other, and so particularly the Kurds who have autonomy 
now, practically have their own nation and probably will 
proclaim it very shortly.
    So my sympathies would be to say to the Kurds, well, why 
should we suck you back into Iraq? You have the right to your 
own nation. And frankly, nobody has ever explained to me why 
the Palestinians are entitled to self-determination but some 
other Kurds are not. I don't think that is fair, quite frankly.
    On the other hand, we are told that if the Kurds break off 
there is practically no way that you could stop the radicals 
from dominating what is left of Iraq and that the Kurds provide 
some sort of a counterbalance to prevent the radicals from 
gaining control. I would like to hear from both of you what 
your views are on keeping Iraq intact or not.
    Mr. McGurk. Let me address that briefly and I can turn to 
my colleague Elissa. As I described in the testimony of a 
functioning federalism concept, it is a concept that is under 
the Iraqi Constitution and that would recognize a very 
substantial devolution of powers. There is a recognition in 
Iraq that, from the center out, you are never going to fully 
control all of these areas, and particularly given the capacity 
of ISIL, and there is also recognition that locals alone and 
tribal forces alone cannot defeat ISIL. They need the support 
and resources of the central state.
    So, therefore, a functioning federalism concept which is 
under the Constitution is really the model that is an emerging 
consensus within Iraq. The Kurdish region now shares about a 
1,000 kilometer border with what is effectively ISIS. We are in 
active conversations with the Kurds and the Kurdish regional 
government to make sure that they are able to manage that 
problem.
    They also face a very serious strategic, geostrategic 
environment given just the geography of the region, but believe 
me, we are in a very active conversation with the Kurdistan 
region about their future in Iraq. But significantly, it is 
important to recall that on April 30th, 14 million Iraqis voted 
in a national election. That included about a 60-percent 
turnout in Ninawa Province, a 50-percent turnout in Anbar 
Province.
    There is a 328-member Parliament which has just convened. 
Today was the first session with the new Speaker of Parliament, 
a very moderate, pragmatic Sunni leader, an emerging Sunni 
leader who secured the support of all political blocks. And 
today in the Parliament, again its first session, they all 
stood together, all groups, to denounce the very horrific 
tragedy inflicted by ISIL against Christians in Mosul. The 
country, overall, the people do not want to divide into three 
different countries, or three different states. There is no 
easy solution for that. When you game it out, actually, the 
consequences are quite serious.
    Mr. Engel. Mr. McGurk, it is my feeling--correct me if I am 
wrong--that the Kurds, consensus among the Kurds is that they 
want to separate from Iraq.
    Mr. McGurk. Yes, the Kurds, there are a lot of Kurds that 
say to me, I think at the heart of every Kurd it wants an 
independent state. There is no question, and I think we have to 
recognize that. We also have to recognize that the Kurds are 
among our very closest friends in the region. We have to have a 
very close, close partnership with the Kurds, and we do.
    But there is also a pragmatic element given the realities, 
given the economic realities, and other things in which we want 
to work very closely with the Kurds on their future. And I 
think the future within the constitutional structure, the Kurds 
right now, for example, are choosing their nominee to be the 
next President of Iraq, and we hope to have that sorted out 
over the coming days, but again within the constitutional 
framework.
    And we have had conversations with Masoud Barzani and 
others just over the last week when I was in Erbil, and then 
Sulaymaniyah with the leadership of the Patriotic Union of 
Kurdistan about their future, about how we can work with them 
on their future, and about a future within the constitutional 
framework. And at least in the near term I think that is the 
best way to go.
    Mr. Engel. I just don't feel that it is fair to hold the 
Kurds hostage. Because we have unfortunately screwed up things 
in Iraq and everything is falling to pieces, we are essentially 
saying to the Kurds, you know what, you have to be the glue 
that keeps Iraq together and therefore we are going to deny you 
your aspirations. I am not sure that is quite fair.
    Ms. Slotkin?
    Ms. Slotkin. So I will just speak to it from the security 
aspects. Given the ISIL threat, the strongest single blunt to 
that threat would be a strong, capable Federal Government in 
Iraq that is actually able to exert control and influence to 
push back on that threat. And while, I guess, it is sort of, 
there has long been this idea that Iraq can split into three 
pieces, I just sort of ask the question: Who is in charge of 
that western and north central part of Iraq in that model?
    So while I think, as Brett described, there certainly are 
lots of folks in the Kurdish regions who have aspirations of 
independence, think about what that means in that neighborhood 
and territory that they are left in if you don't have a strong, 
capable government in Baghdad that is able to blunt these ISIL 
threats.
    They have got Syria, they have got the situation on their 
southern border right there. They have got Iran on the other 
side. That is a tough neighborhood. So from a security point of 
view, the single best blunt, frankly, to both ISIL and to a 
strong, dominant Iranian influence in Iraq is a strong, capable 
Federal Government based in Baghdad.
    Mr. Engel. Well, I was going to ask you about Iran, but I 
see my time is up. Let me just very quickly say that I hope 
that the United States does not think that it can be lulled 
into some kind of partnership with Iran in Iraq. There are some 
people who feel that because our interests may come together, 
converge, that maybe we should partner with Iran. I couldn't 
disagree more.
    I think that Iran is major, the lead supporter of terrorism 
in the world. I think we look at what is happening now with 
Israel in Gaza and all the weapons of Hamas, which is a 
terrorist organization provided by Iran, and I just think it 
would be a tragic error if we somehow thought Iran was a viable 
partner in Iraq.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you. Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman. In 
your excellent opening statement, Mr. Chairman, you had said 
about Mr. McGurk that in February you said that we must ensure 
that ISIL can't gain safe haven in western Iraq and that you 
were confident that Iraq will deny them this. We all know how 
that turned out just a few months later and ISIL took over most 
of western Iraq.
    How could your assessment have been so far off? How did 
Iraq lose this territory? Why didn't we respond to their calls 
for help? Your testimony from February shows that there was 
some serious disconnect within the administration on the 
reality of the threat in Iraq, or we have just been completely 
failing in addressing it. You stated that the U.S. began to 
accelerate some of our foreign military assistance programs and 
information sharing to get a better intelligence picture of 
Iraq.
    Last month Secretary Kerry said nobody expected ISIL to 
capture Mosul. Even if our foreign military assistance had not 
quite kicked in yet, shouldn't our information and intelligence 
gathering efforts have been able to get a better assessment, a 
more accurate assessment of Samarra and Mosul? And it has been 
widely reported that while taking control of Mosul, ISIL seized 
rather large quantities of U.S. supplied foreign military 
assistance and made off with nearly $\1/2\ billion from the 
local banks in addition to tanks and Humvees that were taken. 
U.S. officials were quick to deny the claims of ISIL that they 
captured advanced weaponry such as Black Hawk helicopters.
    Did they capture any Caravan Aircraft with advanced weapon 
platforms and did they take any other advanced weaponry like 
MANPADS? U.S. military equipment and hundreds of millions of 
dollars aren't the only items that ISIL has seized. The Iraqi 
Government confirmed that ISIL took uranium from Mosul 
University. What is the status of that uranium? What could ISIL 
use that for?
    And on the Christian community, we have seen that the 
ancient Christian community in Iraq is under siege by these 
Islamist militants. Once a vibrant and sizable community, now 
over 1 million Christians have been forced to flee their homes 
and communities or be killed. Their homes are being marked by 
ISIL and they are being given an ultimatum to flee, to convert 
or to be murdered.
    In February, Mr. McGurk, you said you were trying to make 
sure that the Christian community had the resources to protect 
itself and that we had actually made progress. It is clear that 
we haven't made any progress. We cannot protect them. So what 
are we doing now to help protect the few remaining Christians 
and their religious sites and artifacts?
    And as Ranking Member Engel had pointed out, are we on any 
level, directly or indirectly, coordinating with Iran or Syria 
over our Iraq policy, or ISIL, and does the administration 
believe that Maliki must go? Yes or no? Thank you, sir, and 
gentle lady.
    Mr. McGurk. Let me try to address some of these in order. 
First, the discussion we had, the very good discussion we had 
in February was focused on Anbar Province, and I will just 
bring you up to speed on where we are in Anbar Province. At the 
time, Fallujah was in control of ISIL. Fallujah is still in 
control of ISIL. I made clear then that our advice to the 
Iraqis was not to move into Fallujah, it was to set a cordon. 
And that cordon remains in place although it is fairly loose.
    Second, we wanted them to hold the provincial capital of 
Ramadi. So far they are still holding the provincial capital of 
Ramadi. What has changed significantly in Anbar is a very 
sophisticated attack that happened late last month on Al-Qaim, 
the strategic border crossing in Anbar, which again proves that 
ISIL is really an army. It is a militarily capable force. It 
was a multiple day assault.
    Ms. Ros-Lehtinen. And to your written testimony, ISIL also 
generates $12 million a month through illicit business in 
Mosul. That is a lot of money for terrorists. Quite an economic 
entity.
    Mr. McGurk. They are a self-sustaining organization. And 
what we had seen in Mosul for some time was a bit of a modus 
vivendi in which they were in control of the city at night but 
they were not openly in control. And that was why the assault 
into Mosul last month did catch everybody off guard.
    We saw some indications of it coming. As I said, we had 
sources on the ground who told us about 3 days before that they 
were seeing indications of it coming. But we did not envision 
the assault nor the collapse of security forces up there. I 
will say I have had a number of conversations with the----
    Ms. Ros-Lehtinen. I am out of time. I apologize. I threw a 
lot of questions at you so that you could give me some written 
responses. Thank you, Mr. Chairman. I apologize. I am out of 
time.
    Chairman Royce. We will go to Albio Sires, the ranking 
member on the Western Hemisphere Subcommittee.
    Mr. Sires. Thank you, Mr. Chairman. Thank you for our 
witnesses to have been here. Ms. Slotkin, I have been here 
since 2006, and I have come to hate the word ``assess and 
train.'' We seem to be assessing and training Iraqi soldiers, 
assessing the situation in Iraq, and I think the situation is 
worse than ever after spending billions of dollars. We train an 
army, they fire a shot at them, they run for the hills. Where 
did we go wrong with these people? We put all this money into 
training them and they can't even defend a section of their own 
country? I just, it is mind boggling to me.
    Now we have this situation where we have ISIS moving in all 
sorts of direction. I am concerned that in Jordan, for example, 
we have about 2 million refugees, and if we have a situation 
where they destabilize Jordan, the whole area it is just a 
mess. What did we do with all that money that we put to train 
all these people? Where are these trained people that--and I 
have been here since 2006 so it is not just this 
administration. I am talking from 2006 on.
    Can you just, or Mr. McGurk, can you also assist me in 
understanding this?
    Ms. Slotkin. Yes, so let me address the issue of the 
training. I think anyone who has watched the news or been a 
part of our efforts in Iraq was disappointed by what we saw in 
Mosul. And I think the biggest thing that we looked at and we 
were surprised by was the dissolving of, frankly, four Iraqi 
divisions up and around that area and some areas where they did 
not fight, in contrast to western Iraq where they were putting 
up a serious fight.
    And rather than a lack of capability, I think what we 
believe is that they just lacked either the will or the 
direction to fight. So either they, as Brett described there 
was a snowballing effect and they out of fear stripped off 
their uniforms and turned, or they waited for direction from 
Baghdad that did not come and therefore departed.
    We don't believe they lacked a basic capability. It is that 
at the end of the day they did not have the will or direction 
to fight in that part of the area. That is critical for any 
future plans we decide to pursue in Iraq. We have to understand 
whether the partner in Iraq that we would be working with has 
the will, the direction, the capacity to fight, and that is why 
we have folks on the ground right now trying to figure that 
out. But I mean it is not that it is not frustrating. It, of 
course, is.
    Mr. Sires. Well, we spend billions of dollars on a group of 
people that are not willing to fight.
    Ms. Slotkin. I don't think we can say that about all the 
Iraqi security forces. We see them attempting to take offensive 
action in Iraq as recently as this week. So it is not a blanket 
statement you can make. As Brett said, in western Iraq there is 
still areas that are----
    Mr. Sires. But there were four divisions though.
    Ms. Slotkin. There were four divisions. That is correct.
    Mr. Sires. Mr. McGurk?
    Mr. McGurk. Let me just add a couple points. First, the 
leadership and the command in Mosul of these units have all 
been fired. We immediately were in conversations with Iraqi 
leaders, security and political leaders, in the wake of Mosul 
and recommended a wholesale change in the command. New 
commanders have been appointed. Those are commanders we know 
very well, they are also quite effective.
    Iraqis, just in the past month in terms of fighting units, 
they have suffered almost 1,000 killed in action, and they are 
holding a line, and they are beginning to conduct some very 
rudimentary offensive operations to clear some highways. I will 
not underestimate the extreme challenge here, but what we saw 
in Mosul was not indicative of the force as a whole.
    We are finding that the units, many of them are balanced. 
There is about an average--I was just on the phone with our 
folks out there today. The composition of the force is about 55 
percent Shia, about 23 percent Sunni, by and large, and what we 
have found is that within the units themselves there is no 
fracturing among sectarian lines within the units themselves.
    Now, there are very incompetent and incapable units with 
very poor leadership, there is no question we found those. But 
we have also found extremely capable, extremely proficient and 
extremely dedicated units, and it is in our interest, I 
believe, to invest in those units. We should not write off what 
happened in Mosul and write off the entire security force 
overall, because that would not be either an accurate response 
to the overall situation and picture we are seeing nor, I 
think, would that be in our long term interest.
    Mr. Sires. Can you talk a little bit about the direction 
they are going maybe toward Jordan and what are we doing to 
offset that?
    Ms. Slotkin. So obviously, particularly the news a couple 
of weeks ago about ISIL taking ground near the Jordanian border 
was we all look at that very closely particularly the 
Jordanians. I think what is important to remember is the 
Jordanians are a very solid, capable force that is laser 
focused on this issue.
    They have moved troops to the border in order to reinforce 
their side of the border, and then the United States has a 
robust relationship with Jordan that is only strengthened, 
frankly, in the wake of everything that has gone on in Syria. 
So there is quite a significant amount of interaction on a 
daily basis with the Jordanians, but we obviously watch that 
with keen interest.
    Mr. Sires. I am sorry I have run out of time. But I wanted 
to ask you about Camp Liberty, but I ran out of time. Chairman, 
thank you very much.
    Chairman Royce. We will let the witness respond to your 
question there.
    Mr. Sires. Can you talk about a little bit about Iran using 
this situation to attack Camp Liberty?
    Mr. McGurk. Very briefly, we are watching Camp Liberty 
extremely closely. It remains our goal to get all of the 
members and residents of Camp Liberty out of Iraq. We are 
working that extremely hard. We have some leads with other 
countries and third countries. We also are going to do all that 
we can to make sure that they remain safe.
    And I can assure you that in all my conversations with 
Iraqi leaders, even in the midst of this very urgent crisis I 
raised the issue of Camp Liberty in making sure that the 
residents there remain safe.
    Mr. Sires. Thank you for your courtesy, Mr. Chairman.
    Chairman Royce. Certainly. We go now to Mr. Chris Smith of 
New Jersey, chairman of the Subcommittee on Africa, Global 
Health, Global Human Rights, and International Organizations.
    Mr. Smith. Thank you very much, Mr. Chairman, for calling 
this very important hearing, and welcome to our two 
distinguished witnesses. Let me ask you if I could, some 
experts argue that 10,000, at least 10,000 U.S. 
counterterrorism forces should have remained in Iraq but the 
President and Maliki both chose otherwise. In retrospect, did 
that contribute in any way to ISIL's emergence and the current 
situation on the ground as it exists today?
    Secondly, Secretary McGurk, you said that a formal request 
for assistance was received in May. And my question would be 
whether any informal requests through other avenues including 
from the Iraqi Ambassador to the U.S. made before that and how 
do you define formal request? I mean if certain individuals are 
asking for help, what modality needs to be employed in order to 
say that they have actually asked?
    Thirdly, Abu Bakr al-Baghdadi, as we all know, was in 
United States' custody and was released. When he was released 
he told the American guards who were from New York, so that is 
perhaps what he meant or could have had the double meaning of 
we will come get you 9/11-like, he said, ``I will see you in 
New York.'' We know that he now as emerged as the leader of 
ISIL, or ISIS, and obviously has posed an enormous threat to 
life and liberty of Iraqis, to Christians, and perhaps even to 
the United States.
    And my question is, especially in light of what has 
happened with Guantanamo, where as a result of the 2012 
intelligence legislation it was required for the administration 
to tell us how many of those who were released from Gitmo went 
back into battle--and the report suggested that of the 614 that 
were released, 104 were confirmed to go back into the battle 
against Americans and our allies. Seventy-four probably went 
back but they couldn't confirm it, for a total of 178 which is 
a huge number of potential American and allies' death to 
service members, and we had them in custody.
    So the question there with regards to Bakr al-Baghdadi, did 
we in any way see this coming? Why was he released to be 
allowed to go and re-form or to form ISIS and to do the 
terrible things they are doing today?
    Mr. McGurk. Let me, first, on the formal, I am not playing 
with words on formal or informal request. The conversation, I 
can just, it kind of goes like this. You will sometimes hear 
from an Iraqi official they want direct U.S. air strikes. You 
then talk about this is what that would mean, access to your 
air space, et cetera, and then it is like, well, wait, let us 
find a way for us to do this on our own. And so that is why we 
worked with the Caravans and the Hellfires. The formal request 
very clearly--access to air space, direct U.S. air support--
came in May. Very clear and unequivocal, that came in May.
    I do not have information on the release of Baghdadi, but I 
can obviously get back to you on that. And again, in terms of 
2011, I can just speak to my own experience on this. I was out 
of government. I came into the process extremely late. We had a 
legal requirement that SOFA would have to go through the entire 
Iraqi Parliament, and I can report from my own experience that 
none of the political blocks in the Parliament were going to 
support that request given our own requirements, so therefore 
it was just not possible for us to stay.
    The rise of AQI, as I think I testified in my last hearing 
here, it really regenerated in Syria and on the battlefields 
and battlegrounds of Syria. And so that is where we saw the 
massive regeneration, the massive influx in foreign fighters, 
and then we started to see it come back into Iraq over the 
course of last spring and summer. So that was really what led 
to the regeneration of al-Qaeda in Iraq which we now know as 
ISIL.
    Mr. Smith. Mr. Secretary, if I could ask you--and I 
appreciate that and if you could get back on al-Baghdadi I 
would appreciate that. The Iraqi requests started coming in in 
August 2013 for assistance. Is that true?
    Mr. McGurk. Yes, for enhanced assistance in terms of 
sharing information, in terms of enabling some of their units, 
yes.
    Mr. Smith. Did we respond to it in an affirmative way?
    Mr. McGurk. We responded immediately. We set up 
intelligence fusion sharing centers. We helped with the 
Hellfire missiles precision strikes. We helped them in terms of 
training forces on the ground, the special operations----
    Mr. Smith. Because I am almost out of time, are there items 
or requests that went unfulfilled?
    Mr. McGurk. Again other than this most recent request in 
May, in fact, in January we got a list of requirements and 
things that they wanted. We have fulfilled every single piece 
of that list. And I can answer in writing a very detailed 
response.
    Mr. Smith. If you could, I would appreciate that very much. 
Thank you, Mr. Chairman.
    Chairman Royce. Mr. Ted Deutch of Florida, subcommittee 
ranking member of Middle East and North Africa.
    Mr. Deutch. Thank you, Mr. Chairman. I would like to talk 
about our regional partners and it is a really simple question. 
We talked a lot about Jordan and the threats that Jordan faces, 
and, Ms. Slotkin, you spoke about that. And Chairman Ros-
Lehtinen and I were there recently and we appreciate that.
    I would like to move beyond Jordan and talk about our 
regional partners in the Gulf and the question is really 
simple. Who is concerned, what are they doing about it, and who 
may be concerned but is not helping and perhaps may even be 
making things more difficult?
    Mr. McGurk. I will let Elissa handle some of this. I can 
just say the conversation has shifted, I think, over the last 
18 months from--there used to be a conversation when you would 
talk about this rise of very extreme, virulent al-Qaeda type 
groups that in a second war, we will be able to take care of 
those groups once Assad is gone.
    I think the conversation now is that, obviously, these 
things would have to be done in parallel. There is a really 
renewed focus on ISIL. Secretary Kerry, when he was in Iraq 
last month, immediately then went to Paris and held a meeting 
with the Foreign Ministers of Jordan, UAE and Saudi Arabia, and 
then went on to Riyadh. And we found a really new emphasis, a 
new coalescence in terms of views of how we have to go about 
this very serious threat of ISIL.
    ISIL took a town in Anbar Province called Rutba, which has 
an open highway. It is a very small town. They don't have a 
large presence there, but it has an open highway to Saudi 
Arabia, and that is obviously a very significant development. 
So the Saudis are very focused on this as are the Emiratis, and 
certainly, certainly as are the Jordanians, and we work with 
them every single day on it.
    And the cooperation we have had in terms of Iraq, in trying 
to think about how to squeeze ISIL, squeeze its resources, its 
manpower, is at a new level now than it was, I think, even 6 to 
8 weeks ago.
    Elissa?
    Ms. Slotkin. So I will just add to that that the folks that 
we have added, the Department of Defense have added into Iraq, 
have come from the CENTCOM region and we are in regular 
consultation with all of the Gulf countries, particularly those 
who host our troops. Kuwait, Qatar, UAE, and of course Saudi 
Arabia, I have seen, have pledged significant amounts of 
humanitarian aid for the situation in Iraq. So I do think 
people are aware of it.
    And I think the thing that is critical going forward on all 
of these questions is that we are going to need a regional 
approach to this problem. There is no way--the ISIL threat, it 
is like air in a balloon. If you squeeze one part all of the 
air goes to the other side, you squeeze that one. So we will 
need all of the partners in the region who are, like anyone, 
concerned about this issue to play a role in countering this 
threat.
    Mr. Deutch. Can I just follow up? If I understood you 
correctly, and just to characterize your comments, the Emiratis 
and the Saudis are very concerned and are doing something about 
it to be helpful. The Qataris are aware of it. Can we talk a 
little more particularly, frankly, in light of--and Ms. 
Slotkin, I will direct this to you--in light of a very large 
arms deal that was announced with much fanfare, tell me what 
more the Qataris are doing besides being aware of ISIL?
    Ms. Slotkin. So I know that Secretary Kerry has had a 
significant amount of phone conversations with all of the Gulf 
allies on how to get more engaged. I don't think other than 
remaining in close contact with them that there is anything 
that anyone is doing right now because we are still trying to 
get a handle on the threat and what to do about it in a 
coordinated way.
    Mr. Deutch. Are there any funds coming from Qatar or any of 
the other countries to support ISIL or any of the other groups 
in the region?
    Ms. Slotkin. Yes, I have been asked this question a couple 
times. To our knowledge right now, and again the intelligence 
community is assessing that no states, regional states are 
sponsoring ISIL now.
    Mr. Deutch. That is not what I asked. Right.
    Ms. Slotkin. I can't speak in this forum to groups within 
these countries, but the states themselves are not supporting 
ISIL.
    Mr. Deutch. I appreciate that.
    I yield back, Mr. Chairman.
    Chairman Royce. Thank you. We go to Mr. Dana Rohrabacher of 
California, chairman of the Subcommittee on Europe, Eurasia, 
and Emerging Threats.
    Mr. Rohrabacher. Thank you very much. Maliki hasn't done a 
good job, has he? He hasn't done a good job, has he? He has 
made things worse, hasn't he?
    Mr. McGurk. We have serious concerns about the 
effectiveness of the Government of Iraq. I would just add, we 
had an election on April 30th, and they are now establishing a 
new government. So that is where the process stands now, and 
whether or not the Prime Minister can achieve a third term is 
something that remains in question.
    Mr. Rohrabacher. So we have not, however, officially 
suggested that he leave, or have we unofficially suggested to 
him that it might be time for him to visit some of his money in 
Dubai?
    Mr. McGurk. Let me also just back up in fairness to the 
Government of Iraq. They also face a tremendously difficult 
situation. The 30 days before they had an election in Iraq 
there were 53 suicide bombers in Iraq blowing up mosques, 
marketplaces, parades, fairgrounds, playgrounds. Any country 
facing that level of violence, and that is all from ISIL, is 
going to face extreme difficulty because ISIL is trying to tear 
apart the political fabric of the country. So all the leaders 
are struggling with this extremely difficult situation.
    Mr. Rohrabacher. I will accept that we cannot just blame 
Maliki himself, but he has not provided the leadership that 
would be necessary to overcome what could be inherent problems 
with having a country called Iraq made up of that territory and 
those peoples that now compose that territory. That territory 
was devised and put together by European imperialists who 
decided that would be what the country of Iraq would look like.
    Let me just say that as far as I am concerned, the United 
States should not be having to limit itself and limit what 
solutions we can possibly have based on what the British Empire 
determined 100 years ago. And it all flows back to those 
people. So with that said, I would hope that we would be open 
to situations like having a actual Kurdistan exist, maybe a 
Balochistan as well. There used to be a country named 
Balochistan, and the British decided to cut that in two and 
split that up.
    And the Kurds have always deserved to have their own 
national identity, and until we do I happen to believe that no 
kind of leadership that we could put into place in Iraq is 
going to be successful. Maybe it is too much, even if Maliki 
was the best it might not be enough because that may be an 
ungovernable creation that our British friends gave us as a 
present when they exited as world leader.
    One other issue that I would like to mention. When you said 
that we are watching very closely what is going on with the MEK 
and Camp Liberty, it is not enough. It is not enough. The last 
time we were watching very closely, and hundreds of those 
people have been murdered. We are talking over the years where 
we watched and the Iraqi army went in and murdered those 
people.
    And we are looking for someone to take them. Why aren't we 
deciding to take them? They are vulnerable. They are people who 
we have had to deal with. Is it our Government that we will, 
are we just--and I know I have a resolution, Mr. Chairman, 
suggesting that we take these people in. They are going to be 
murdered otherwise, so why are we just watching? Why aren't we 
moving beyond that and moving them out?
    Mr. McGurk. We are working, as our senior advisor for MEK 
Resettlement, Jonathan Weiner, is working, he is actually on a 
flight tonight on this issue, working to find again more third 
country settlement options. One particular lead, we are hoping 
that a country that has already taken a significant number will 
take more and perhaps a substantial amount more. So we are 
working these leads very aggressively and I am happy to follow 
up with you with a more detailed briefing on where that stands.
    Mr. Rohrabacher. Okay. I would be very appreciative if you 
could follow up on those details with me. But also let me, Mr. 
Chairman, just for the record again state it would be better, 
these people have relied on us. We made a deal with them. They 
have provided us some very important intelligence information 
and activities over the years.
    If other countries will not permit them to come in, it 
might be in our moral interest as well as our interest of 
having other people trust us in the future just to take them 
into the United States as refugees. And if there is any group 
of people in the world that are at risk and are refugees it 
would be these folks in Camp Liberty. Thank you very much, Mr. 
Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher. We go now to 
Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to begin by 
welcoming a colleague from across the pond. Ian Austin is a 
Member of Parliament from Great Britain who is here today. 
Welcome. He is part of a program shadowing Members of Congress, 
and we welcome you.
    Thank you to the witnesses for your testimony. And I want 
to say first that I think, like most Americans I am very 
concerned about the unfolding situation in Iraq. And the rapid 
events of ISIS is incredibly disturbing, particularly following 
the loss of more than 4,000 American lives during Operation 
Iraqi Freedom. However, I think we must also remain mindful, 
not only of the sacrifices of our brave men and women in 
uniform and the sacrifices they have made in Iraq, but the 
dangers that surround any further military involvement.
    It was reported recently that a classified military 
assessment of Iraqi security forces showed deep infiltration by 
Sunni extremist informants and that Shiite forces remain 
dependent on Shiite militias trained in Iran. And this poses, I 
believe, a very significant risk to U.S. military personnel 
advising Iraqi security forces.
    The situation in Iraq is a problem that requires a 
political solution, and in June, Secretary of State John Kerry 
said that the formation of a new government in Iraq that is 
inclusive of all parties and stakeholders is an essential 
prerequisite to offensive military action by the United States. 
Secretary Kerry said that it would be an act of great 
irresponsibility to order offensive action without a stable 
government.
    So I have, really, two questions in light of that context 
and in light of your testimony. First, to you, Mr. Secretary. 
You spoke about this functioning federalism which, I think, has 
some very significant appeal. And my question, really, is what 
is your assessment of the capacity of the Iraqis to proceed 
with that sort of model, the willingness to proceed 
particularly since it involves the devolution of power, and 
what are the first, kind of key first steps that we should be 
looking for or we should be supporting for that to go forward?
    And then secondly, would you comment on the humanitarian 
situation in Iraq? We are hearing reports of deliberate 
targeting of women and girls in Iraq, horrific sanitary 
conditions, and more than a 1.2 million Iraqis being displaced. 
Are international organizations or the Iraqi Government working 
effectively to mitigate these conditions? And if you could talk 
about kind of what the current humanitarian situation is.
    Mr. McGurk. I am happy to. First, let me address the 
humanitarian situation, and also it gets to Congressman 
Deutch's question on the Saudis because I forgot to mention one 
thing.
    In the wake of Secretary Kerry's trip to Riyadh, the Saudis 
put $500 million into the U.N. organizations that are managing 
the humanitarian response in Iraq. And we work very closely 
with those organizations, and that contribution was both 
welcome and essential. So it is a point of how we have some 
coalescence in the region, and that was very critical. The 
humanitarian situation remains quite serious, and I can get you 
all the statistics and everything we are doing because I don't 
want to take too much of your question time.
    In terms of the willingness of a functioning federalism, it 
is all within the Iraqi Constitution, and it is pretty much 
spelled out. So I think there is a growing recognition that a 
model like this is both appealing because it conforms with the 
new realities on the ground.
    As I said, local actors, tribal actors, are not going to be 
able to defeat ISIL on their own. I have examples of that in my 
testimony where, just over the last 6 weeks, some tribes have 
risen up to fight ISIL, and ISIL has responded with tremendous 
and brutal force. They are killing Sunnis wherever they go 
where Sunnis disagree with them.
    In Mosul, when Abu Bakr al-Baghdadi gave a speech at one of 
the oldest mosques in Mosul, that was made possible because 
ISIL killed all the moderate clerics who were in that mosque 
before ISIL moved in. So there is a recognition from the local 
side that they need support to grow their own security forces. 
They want to be in control of their areas.
    And there is a recognition from the center that the army 
cannot be reconstituted to take control in these areas, so you 
have to have a cooperative federalism model. It is also 
something that we can fully support, and I think help enable. 
The Iraqis are trying now, working to reconstitute the units 
that dissolved in June, and are now training about 10,000 of 
those soldiers who either fled from their posts or, 
significantly, one-third of those soldiers were on their R&Rs 
during that time, and most of them have come back.
    The Iraqis are working to retrain them, to put them through 
a 3- to 4-week training program, again something that we can 
help with. But everybody recognizes you cannot then 
reconstitute the structure on a structure you had pre-Mosul. It 
has to be smarter and more adaptive to realities, and because 
it is within the constitutional framework, there can be a 
fairly broad consensus for that model.
    Mr. Cicilline. Thank you, Mr. Chairman. I yield back.
    Chairman Royce. We go now to Mr. Steve Chabot of Ohio, 
chairman of the Asia and the Pacific Subcommittee.
    Mr. Chabot. Thank you, Mr. Chairman. And thank you for 
holding this very important hearing and we appreciate our 
panelists being here today. There is, quite frankly, a great 
deal of skepticism in how this administration is overseeing the 
unraveling of Iraq. Really, I think, from the start I think we 
are all aware that the President was anxious, desperate to 
reduce our involvement in Iraq. He had made promises about 
doing just that and I think there was a kind of a scramble for 
the door there from the very start.
    I have been to Iraq a number of times. I chaired the Middle 
East Subcommittee in the previous Congress. And I think we have 
known, I mean it was always the plan, it was always assumed 
that we were going to have a military, a U.S. military presence 
there following the war and it was for a number of reasons, 
principally to secure the gains that had been made at such a 
high cost of American blood and treasure.
    And of course we know that there was a failure to reach an 
agreement on the status of our forces. Afterwards there was a 
lot of debate on how much of an effort was actually made in 
securing that agreement. But whatever the case is there was a 
failure to secure it and virtually all U.S. troops were pulled 
out.
    Many of us, some who are no longer in Congress, some who 
are still here, some on this committee, some not, many of us 
predicted not exactly what would happen but pretty much what 
would happen, and the unraveling and the chaos and the 
tumultuous situation that we see in Iraq now was predicted by 
so many people.
    My first question would be, what difference would a U.S. 
military presence there have made? And how much confidence can 
we have in the very administration that made that decision to 
pull all U.S. troops out who is now making the decisions to 
salvage what is left of Iraq at this time?
    Mr. McGurk? Or Ms. Slotkin?
    Ms. Slotkin. Sure, I will take a first jab at it. I do 
think it is important again to review the history, and both 
Brett and I worked on the original 2008 SOFA with Iraq which 
did say that by the end of 2011 that we would be out of Iraq. 
So that timetable was set back in 2008. And I know there was 
quite a bit of discussion and debate about what should happen 
at the time in 2011 about a follow-on agreement, but I really 
do think the point that Brett made is critical.
    The Iraqi leaders could not get it through their 
Parliament. Unlike what we have in Afghanistan today, we had 
Iraqi leaders at that time saying, I don't think it is 
necessary. We don't want you in. And they weren't inviting us 
in. They are a sovereign country. So we made the decision to 
cease negotiations because we didn't have will on the other 
side. That is a critical factor.
    Mr. Chabot. It is certainly a factor. But the United States 
is a pretty substantial country on the globe, and we had a lot 
of involvement there and our officials were meeting with their 
officials and there were relationships, and yes, they certainly 
had to agree with it. But the effort that was made and 
ultimately the decision to pull all the troops out, I mean it 
is mind-boggling to think looking back where we are now and how 
different things probably would have looked had we done 
something different.
    I have only got 1 minute left so let me shift gears to one 
other thing. With what is happening with the Christians 
especially, I know there is persecution going on with lots of 
other people besides Christians, but this convert or die 
mentality that is now in action wherever ISIL is in control is 
something that, I mean you think almost 2,000 years ago in the 
Roman persecutions these were decisions that people made back 
then and in the modern world that people are faced with those 
kinds of decisions.
    So I would just urge the administration to work with any 
resources we have available to us to push back on that with 
every fiber that we have as a nation. And if you want to 
comment on that I would welcome it.
    Mr. McGurk. I would just say, Congressman, I agree with you 
100 percent. Just last week I saw Bishop Warda in Erbil and 
also I saw the Chaldean Patriarch in Baghdad discussing this 
very question. The Christian enclaves in northern Iraq, they 
are looking for some resources to provide local security, 
control. They are now in areas controlled by the Kurds.
    We have discussed this with the Kurdish regional 
government, about how we can incorporate individuals from these 
areas to provide security in their local areas, such as a 
police force just to provide security on the streets, and that 
is something we are discussing. But this has the attention of 
the United Nations Security Council, it has the attention of 
the entire world.
    As I said, the entire Iraqi Parliament today, again its 
first real session, they have had have stood all in solidarity 
with the Christians in Iraq. This is something that both 
reveals the true nature of who ISIL is. It is not a tribal 
uprising reflecting legitimate grievances. It is a vicious 
terrorist organization with a 7th century ideology that nobody 
accepts, and it has to be uprooted and defeated.
    But I agree with you 100 percent, your comments, and I will 
also follow up with you more and specifically on the Christian 
question.
    Mr. Chabot. Thank you. Mr. Chairman, my time has expired.
    Chairman Royce. We go now to Mr. Brad Sherman, ranking 
member of the Terrorism, Nonproliferation, and Trade 
Subcommittee. Brad Sherman of California.
    Mr. Sherman. When we conquered Germany and Japan after 
World War II, we were not embarrassed to by occupying those 
countries. We stayed as long as we needed to stay. We wrote the 
Constitution for Japan, and we very slowly turned over power to 
the right people. In Afghanistan, and especially in Iraq, we 
were embarrassed to be there, defensive as to whether we were 
somehow imperialists. And we were so anxious to turn over the 
government that we got Maliki and Karzai, neither of which 
would sign a Status of Forces Agreement with us just to 
illustrate one of their many faults.
    Ms. Slotkin, the New York Times reported on the front page 
that the Iraqi security forces are so deeply infiltrated by 
either Sunni extremist informants or Shiite personnel backed by 
Iran that any American assigned to advise Baghdad's forces 
could face a risk to their safety. Is that accurate?
    Ms. Slotkin. So I just want to caution that the report is 
draft classified and that represents a leak of information, 
from someone who seems to know something about it but not 
clearly to have read the full report.
    Mr. Sherman. Put aside the exact phraseology. How 
dangerous, and we are in a known classified situation here, how 
dangerous is it for American service personnel to be advising 
Iraqi units?
    Ms. Slotkin. That is exactly what we went over there to try 
and assess. Those are draft, they are classified, and I am not 
able to get into the details right now.
    Mr. Sherman. Okay.
    Ms. Slotkin. It was a threat when we were there, and with 
170,000 troops the insider threat is always a threat and we 
would have to either work to mitigate it or not work with units 
if we thought it was an overwhelming threat.
    Mr. Sherman. There is this idea that we should bomb ISIS. 
How important is it that we have reliable ground spotters to 
make sure we are bombing the right folks and not bombing 
civilians? Can we run a bombing campaign without anybody we 
trust on the ground?
    Ms. Slotkin. I mean the United States does not 
indiscriminately bomb targets. We have a rigorous procedure 
that involves having verification of the targets we are 
trying----
    Mr. Sherman. Do we need humans on the ground for that 
procedure to work effectively?
    Ms. Slotkin. It is significantly better if we have reliable 
folks on the ground to give us verifiable information.
    Mr. Sherman. And the Iraqis. First, do the Iraqis have the 
technical expertise to be those spotters? Do they have good 
people that can tell us where to bomb and what to bomb?
    Ms. Slotkin. There are some very capable Iraqi units that 
would be capable of doing that.
    Mr. Sherman. And then if the New York Times is correct, 
however, they may deliberately give us the wrong coordinates 
because it may meet the political needs of either the Sunni 
extremists or the Shiite extremists that we bomb civilians. So 
we don't know unless we know both the technical competence and 
the political objectives whether we can rely on those spotters.
    Mr. McGurk, does Maliki have to go?
    Mr. McGurk. Again there is an ongoing process to form a new 
government. Maliki's party won about 91 seats. You would have 
to have 165 seats to form a government, and it remains to be 
seen whether or not that can happen. I would also add that, 
were we to take a position on such a thing, it would obviously 
not be either in our interests, or it would dramatically effect 
the process.
    This is a uniquely, uniquely Iraqi process with Iraqi 
political dynamics, and the outcome will reflect that process. 
The new Speaker of the Parliament, for example, is someone that 
nobody would have picked to be the Speaker of the Parliament. 
He kind of came out of nowhere, built the coalition, did the 
politicking and built a very broad coalition among Sunni, Shia, 
Kurds and everybody, and won an overwhelming vote----
    Mr. Sherman. Has Maliki announced positions that would 
seriously entice Sunnis and Kurds to believe that they would 
get a fair shake under a third term for Maliki? Has he publicly 
announced a platform that has serious appeals, makes serious 
concessions to those other two communities?
    Mr. McGurk. He has a platform that has all of those 
principles in it. It is just difficult after 8 years, and given 
the kind of, a lot of the bad blood that has developed, and the 
mistrust that which makes it very difficult. But a lot of his 
platform----
    Mr. Sherman. So he has got some great vague platitudes in 
his platform that nobody believes. I yield back.
    Chairman Royce. We go now to Mr. Jeff Duncan of South 
Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for this very 
informative hearing. Mr. McGurk, in your written testimony you 
commented about the state of U.S. intelligence. In advance of 
the fall of Mosul and this most recent ISIS offensive, you said 
``In the earliest days we had to acknowledge that we were 
operating in a fog.'' You also say that intelligence collection 
after the fact has improved.
    But I am troubled by the fact that we were operating in the 
fog in the first place. Because in February, you testified here 
and you told us exactly what ISIS wanted to do. Take control of 
western Iraq, challenge the Iraqi Government for control of 
Baghdad and foment the sectarian conflict. For most of the past 
year, ISIS has already been in control of about half of Mosul. 
There were plenty of other clear signs that ISIS was a rising 
threat, really, over the past year, 1\1/2\ years, 2 years. We 
have had eyes watching what was going on in Syria and surely 
watching the Iraqi and Jordanian borders.
    So knowing all this and knowing all that we did of what you 
testified in February, why weren't we doing more to collect 
intelligence all along? Please help us understand what led to 
the decision not to have robust intelligence collection efforts 
against this terrorist group.
    Mr. McGurk. Well, as I did testify, we began to move assets 
into the theater. What my testimony is speaking to is the 
immediate crisis response. And in the immediate days after 
Mosul, it was fog and rumor and friction and chance as you get 
into in these circumstances. And what I was trying to get at in 
the testimony is that it was very difficult for us to know 
specifically what was happening.
    And it was very difficult for us to know the extent of 
ISIL's advance southward, down the Tigris River Valley, which 
is why, in a meeting with the President in the earliest hours 
of this crisis, the decision was made immediately to 
significantly surge U.S. air assets over the skies of Iraq. 
Again, to go from one a month to 50 a day including manned 
aircraft, and that was something that the Iraqis also welcomed.
    In response to an earlier question, I just want to say the 
Iraqis, despite whatever may have happened in 2011, since this 
crisis, we have been embraced. Our presence has been embraced 
from top to bottom and they are actively seeking our 
assistance. To have U.S. military assets in the skies of Iraq 
is something that was extremely controversial even as late as 
last fall.
    Right now they welcome us there. They want us there. And it 
is a very different situation than it was, even when I was here 
testifying in February, in terms of the Iraqi appetite for our 
direct support.
    Mr. Duncan. And here is the thing. Folks in South Carolina 
and folks I talk to all over the country are concerned of what 
is going on in Iraq because we lost so many men and women 
there. Not only lost in the loss of lives, but lost in their 
ability to be productive citizens and being, whether it is PTSD 
or whether it is an actual physical injury, why did we lose 
those men and women and turn around and lose control over an 
area?
    And we can watch and tell the heat signature, the plume, 
what rocket launcher it came from and where it shot down a 
plane in Ukraine, but we spent a lot of money, a lot of effort 
in Iraq and yet we are blind? We are in a fog? I just find that 
hard to believe, especially with so much going on in the 
region. With what was going on in Syria and what ISIS and ISIL 
were doing, huge columns of vehicles headed toward Mosul? How 
did we miss that?
    And so that is a rhetorical question I don't expect you to 
answer, but I think it is important. I think Americans are 
going, how did we miss this and why did we spend so much money 
and loss of life in Iraq to see what is going on now? Why can't 
we do more?
    And I noticed in your statement that you said we have set 
up the JOC in Baghdad and Erbil. And I am glad we have, I just 
wonder why it wasn't set up sooner. You said, I think, 6 weeks 
ago it was set up. This thing has been going on for awhile, so 
why didn't we work with the Iraqis to try to thwart that?
    I am concerned about our friends in the Kurdish region. I 
am concerned that they are going to get surrounded. We didn't 
lose a single American life in the Kurdish region during the 
Iraq war, not a single American, because they are friendly. So 
I want to ask this about the Kurdish region. What is the 
administration's position on Kurdish oil exports and what 
actions are we advising American energy companies that might be 
operating with the KRG to take?
    Mr. McGurk. Our position on energy exports from Iraq is 
very clear. We support getting as much oil out of Iraq as 
possible and on to international markets, from north to south, 
and we also support doing that in a way that reinforces the 
overall stability of all Iraqi regions.
    We have an obligation to say, when people ask, that there 
is legal risk for taking oil without an agreement. We worked 
very hard to broker an agreement and actually had an agreement 
on the table that was a very good one as early as 4 months ago 
that would have gotten all of the oil out of the Kurdish north 
flowing and on to international markets, and also had revenues 
coming from the south to the KRG.
    That agreement didn't succeed for a number of reasons, and 
one of which is that we are in the middle of a high political 
season in Iraq. It was an election season. You had an election 
on April 30th and now you are working to form a new government. 
I remain confident that in the process of forming a new 
government we can work with all sides to have a solution to 
this very important issue.
    The budget that is being debated in the Parliament right 
now in Baghdad is about $120 billion budget. There is about $17 
billion there for the Kurdistan region, and we want to make 
sure those resources get to Kurdistan. We have been very clear 
that the decision the Prime Minister made to cut off salary 
payments to the Kurdish north because of its oil dispute is 
completely unacceptable, and should be reversed. We have made 
that very clear. And so again, we are working very closely with 
our Kurdish partners in the north, and also with the government 
in Baghdad to find a solution to this issue. And through the 
process of forming a government we have real opportunity to do 
so.
    Mr. Duncan. My time is expired. I thank Mr. Chairman.
    Chairman Royce. Will the gentleman yield for minute? 
Because I wanted to follow up on a specific statement. What I 
want to follow up on was the comments you made about having 
eyes in the air and the difficulty of that.
    Now in August 2013 that is when a request was made 
originally by the Government in Iraq for assistance. In March 
2014 they actually delivered an official letter to the White 
House asking for help. It is certainly true that originally 
they wanted armed drones to do this work, but that was a 
negotiating position and they swiftly fell back to the position 
of, okay, you won't give them or sell them to us, then can you 
use them in order to hit these jihadist units? And all of this 
incurs long before June when Mosul falls, right?
    So I just wanted to put that in context, unless there is 
something I don't understand, Mr. McGurk. But that is from the 
entreaties or the discussions that I have had, that was my 
understanding of this, we were trying to get these drone 
strikes on these units even before they came over the border in 
order to give some kind of cover for the infantry on the 
ground.
    Mr. McGurk. Again, the sequence was helping the Iraqis with 
their Hellfire strikes with the information and the fusion 
cells we set up, and then moving--the request for our direct 
support came in May. And I think as Elissa has spoken to, our 
ability to do anything effectively requires a much more 
granular picture on the ground. Frankly, we have that picture 
now. We did not have that picture as early as March.
    Chairman Royce. Well, as expressed, we don't understand why 
you wouldn't. Because you have also got signals intelligence, 
you have got human intelligence. And frankly, you had a green 
light there for eyes in the air once they delivered a letter to 
the White House of an official request in March 2014. So this 
doesn't add up, but I will go to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman. And I want to thank the 
witnesses. I think it is disingenuous for us to lay what is 
happening in Iraq as a failure here in America or as a failure 
of any particular administration here in America. I think our 
troops did everything within their power to give Iraq a chance 
and we shed blood. We spent billions of dollars to give Iraq a 
chance.
    One of my staff members is an Iraq war veteran, a wounded 
warrior, Matt Ceccato, and just chatting with him, as veterans 
all around this country are saddened by what they are seeing in 
Iraq, because they did lose their colleagues. They did lose 
many men and women, as we all did, in Iraq. But we gave them a 
chance. We really did. It is also tragic to see what is 
happening to some of the civilians that served side by side 
with our troops supporting our efforts in Iraq and the danger 
that they live under.
    So we really do have to do everything that we can to try to 
ensure their safety and serve their visas as we can. But this 
isn't a failure of an American administration. This is a 
failure of Iraqi administration. And I think everyone in this 
body would be consistent, but this is a failure of the al-
Maliki administration. There were Sunni tribal leaders that 
fought side by side with us in the surge that were made 
promises that were broken by al-Maliki, systematically 
dismantling some of Iraq's own defense forces in a way that we 
saw what happened in Mosul, and they fell apart.
    Now I think, Ms. Slotkin, in your own statement you said 
there is no military solution in Iraq. You indicated that the 
Iraqi people must do the heavy lifting on their own. Can you 
expand on that and tell us what you think that heavy lifting 
would be?
    Ms. Slotkin. Well, I think Brett's spoken to some of the 
ideas that are currently being batted about in Baghdad to sort 
of get toward that political solution. I mean the point that I 
would make as we look toward any potential decisions the 
President makes for future action is we couldn't solve the 
Iraqi political problems for them when we had 170,000 troops. 
We couldn't have solved them if we had kept in 10,000 troops in 
2011, and we are not going to be able to solve them through our 
military support today regardless of what we decide to do.
    The Iraqis have to get at the underlying political 
differences in their system. ISIL is extremely capable, 
extremely dangerous, but they are getting tacit support from 
the Sunnis on the ground in these areas. And it is critical 
that the central government solve those problems so that those 
Sunnis turn away from ISIL and toward their government.
    Mr. Bera. And Mr. McGurk, would, in your assessment, if a 
new Iraqi Government was a more inclusive government that gave 
equal say to the Kurds and the Sunnis and gave them a voice, do 
you sense that some of our former allies and some of these 
tribal leaders would take a different view on ISIL?
    Mr. McGurk. Yes, but I think we have to be very clear that 
ISIL is a military force, and so we have seen tribes try to 
take it on, and they failed. We trained about 1,000 Fallujans 
in 3 months of training, with the Iraqis in 3 months of 
training. And in their first engagement, trying to move into 
the northern reaches of Fallujah a couple months ago, they 
lost. That is because ISIL is a highly effective, sophisticated 
military organization. It is far better than the al-Qaeda in 
Iraq that we fought. And in order for the awakening really to 
get moving in those days, it took a lot of effort on our part 
to degrade that network, which then allowed the awakening and 
the tribal network to really rise up and fight it.
    So I think it has to be taken in parallel. There will have 
to be some military pressure against ISIL. At the same time, 
there has to be a new government with political accommodations 
made to isolate ISIL from the population. But they have to run 
in parallel to be effective.
    Mr. Bera. So if we are thinking this through strategically, 
if a new government forms in Iraq that is much more inclusive, 
the Sunnis within Iraq become much more open to not supporting 
ISIL, our allies in the region, potentially, from the Sunni 
side can also provide some support as well as looking at ways 
to cut off the funding and support of ISIL. Would that be a 
logical thought through scenario?
    Mr. McGurk. Yes. And I would just add, I don't think Sunnis 
support ISIL. And there was an election on April 30th in which 
ISIL said anyone who votes, we are going to kill you, they were 
very clear about that, and in Ninawa Province alone we had 
almost a record turnout, a 1.1 million people, all Sunnis, 
voting for new leaders.
    But ISIL threatens, they intimidate, they rule by brute 
force, and so that is one reason why they need to be confronted 
and isolated. But yes, that is a sequence. First, we have to 
continue to find ways to pressure ISIL, but a new government 
providing a new platform, and also with new regional 
engagement. And we will hope very much that when there is a new 
government, and there will be, that the regional capitals fully 
embrace that government, so we can really make some inroads in 
regional integration, which has not made many inroads over the 
last couple of years.
    Ms. Ros-Lehtinen [presiding]. Thank you very much, Dr. 
Bera.
    Mr. Kinzinger?
    Mr. Kinzinger. Thank you, Madam Chair. I just want to point 
out I am a veteran of Iraq. I spent a lot of time in Balad and 
it is sad to see this gone now.
    I will be honest with you all. I think with this, I mean 
everybody is kind of not saying it, but what it seems like is 
the administration is just paralyzed. They just don't know what 
to do. There is this fear of getting involved in Iraq again and 
getting sucked into Iraq with this reality that the worst case 
scenario in the Middle East is playing out right before our 
eyes and, frankly, this administration bears some 
responsibility for that.
    I would also like to remind folks that in America we threw 
out the Articles of Confederation. We had Articles of 
Confederation, we threw them out and drew up our Constitution. 
Political solutions are not something that we can put in the 
microwave and expect to happen in a very short amount of time. 
This takes time.
    And what we are seeing right now with the encroachment and 
the growth of ISIS or ISIL, whatever you want to call it, is 
the worst case scenario and therefore we have to have a 
political solution before we do anything. I would much rather 
see a flawed Iraqi state in which we could then work a 
political solution than to see ISIS in a capitulated Iraqi 
state.
    Mr. McGurk, the chairman touched on this. Does a March 2014 
request exist to the White House for what could be included as 
air strikes?
    Mr. McGurk. I will check on all the correspondence we have 
had.
    Mr. Kinzinger. I mean you would know if a March 2014 letter 
was hand delivered to the White House requesting assistance for 
the Iraqi Government, right?
    Mr. McGurk. I have a letter from May. I have a letter from 
May in which there is a very clear and specific request. I 
think a lot of correspondence before then again was not----
    Mr. Kinzinger. So you don't know of this existing, so you 
can get back to me if it exists, in fact, if there is a March 
2014----
    Mr. McGurk. I will get back to you and go chapter and verse 
with all of the correspondence we have had with the Iraqis on 
this question.
    Mr. Kinzinger. Okay. And then another question, we talk 
about how we didn't have the intelligence picture. And as 
somebody that flew ISR it is fairly easy to get that quickly. 
We should have had an intelligence picture from when the Iraqi 
Government was asking us for assistance in August. That should 
have been the time at which we said let us get this granular 
picture. But now we have it.
    So we have the official request in May. We have a granular 
picture now. What is the hold up? And I think what the answer 
is is not so much that we are still waiting for a political 
solution. Again I think it is this idea that the administration 
simply is paralyzed and doesn't know what to do. Meanwhile, 
that vacuum is being filled by Iran and by Russia providing 
equipment to the Iraqi Government at a time when we are sitting 
around saying, well, I can't believe they are taking this 
assistance. But they are fighting for the survival of their 
very way of life.
    So this is time where we have to say, look, we are the 
United States of America with a very robust military 
capability, surely we can have the intelligence if we decided 
that May was the time we were going to start looking at this, 
surely in 3 months we could have figured out a picture and 
begun to get engaged at that point.
    I also want to talk about the issue of Hellfire missiles. A 
Hellfire missile has a warhead of 20 or 18 pounds depending on 
what kind of a missile it is and what its target is. These 
Cessnas that have been retrofitted in Iraq, I don't know how 
many they can carry but I guess it is not that many. An Apache 
helicopter carries, I think, 16 of these Hellfire missiles.
    The idea of an Apache helicopter, one, taking out an entire 
camp of ISIS or ISIL is unrealistic with 16 of these Hellfire 
missiles. So the idea of a Cessna with one, maybe two, Hellfire 
missiles being the thing that destroys these camps in Syria and 
in Iraq is crazy. I think we need a robust air strike campaign 
on behalf of the United States.
    When our troops on the ground get engaged in combat we are 
very good. The Marines and Army are very good at fighting off 
the enemy. But the first thing they do is call for robust air 
support to help them win that engagement. This idea that the 
Iraqi military melted away or that the Iraqi military can take 
back ground with a Hellfire missile is unrealistic when our own 
troops, who are very well trained and who have a great 
background and know how to fight wars, call on A-10s, F-16s, B-
52s, B-1s to come in and do close air support in order to 
retake ground.
    So I just am saying that I am renewing the call to the 
administration for massive manned military air strikes to push 
back this very, very bad cancer that is encroaching on the 
Middle East and also to target those in Syria, to understand 
that the Syrians are a very good fighting force and ISIS is 
getting their training in Syria and then spilling it out to the 
rest of the place.
    So I do appreciate you all's service to your country. I 
appreciate you being here. I know it is a tough time, but with 
that I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Kinzinger.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair. Thank you to the panel 
for being here. I think two or three questions. First, could 
you explain what makes the ISIL terrorists such a greater 
threat than the other terrorists that we hear about all the 
time? And what is the most immediate threat to the United 
States and to our allies?
    Second, I have heard a lot of questions which I think are 
appropriate as to what did we know, what could we have done 
maybe to have avoided the threat of ISIL in Iraq and in Syria.
    My question is how far back should we go? Could you give me 
your opinion of the war in Iraq, the invasion of 2003, and how 
that relates to the rise of ISIL? Because I think there are 
many of us in this country who think that was an act of 
malfeasance by our country, by our President at the time who is 
not the current President, and by this Congress, to send our 
country to war in Iraq.
    So I would like you, if you could answer those two 
questions, and if you have time to explain to me the difference 
between what might be some people say is paralysis versus first 
doing no harm?
    Ms. Slotkin. Sure. So I can speak to the terrorist threat 
and why ISIL is particularly different, why we are paying such 
close attention to it. I think it is the territory they now 
hold; the self-financing that they are capable of; not getting 
donations and living off of donations, but the self-financing, 
self-sustainment; the span of control; the capability of some 
of their fighters, they are very, very experienced and war-
tested.
    And then the number of Western passport holders that we 
know have traveled to Syria and are engaged with both ISIL and 
other groups there, the ISILs stated intent--we are coming for 
you, Barack Obama, rhetorically--and then what we know to be 
active plotting in Europe.
    So all those things in combination make them, I think, 
probably, it is safe to say, one of the most capable and the 
best funded group in the region right now, and that is what 
makes it such a particular concern.
    Mr. McGurk. I can talk a little bit about the history, 
although the questions you ask are really questions I think 
historians will sort out. But ISIL is a group that we know, it 
is al-Qaeda in Iraq. Its first leader was Zarqawi. Zarqawi was 
in Iraq before the war. Zarqawi was kind of the leader who 
really focused on this effort to spark sectarian conflict.
    If you go back to their writings at the time, in 2004, it 
might have looked preposterous at the time, but his plan has 
always been--and I testified to this in some detail in my 
hearing here in February--to establish a state in Iraq and 
Syria. That has always been his focus.
    And he said we are going to do it three ways. We are going 
to attack the Shia majority in Iraq consistently, we are going 
to attack their marketplaces, their mosques, their playgrounds 
until they respond. And then he says we will unite the Sunni 
ranks behind us. That has always been his strategy. He also 
will attack any Sunni, tribal sheik, cleric, anyone who 
disagrees with him. That is very clear in his doctrine.
    And also he will attack Kurds, to tear open that very 
narrow fabric which exists in the disputed territories in 
northern Iraq. That was his stated strategy in 2004, it is now 
the strategy of Abu Bakr al-Baghdadi. So we know this 
organization. We fought against it. We know what their ideology 
is. What is particularly scary about it now is that it 
basically effectively controls the state, and it has ambitions 
to take the mantle of the global jihad away from al-Qaeda 
central and Ayman al-Zawahiri. So that is why it is a 
significant threat, and that is why we are here.
    And we thank you again for the time to testify about the 
situation today. And that is why we look forward to consulting 
with you to get a handle on it over the weeks and months ahead.
    Ms. Frankel. I am not sure if you answered my question 
about the war in Iraq.
    Mr. McGurk. I have to say, Congresswoman, I will let the 
historians sort out what happened over the last 12 years.
    Ms. Frankel. Madam Chair, I waive the rest of my time.
    Ms. Ros-Lehtinen. Thank you. Thank you, Ms. Frankel.
    Mr. Cook of California.
    Mr. Cook. Thank you, Madam Chair. Once again, Ms. Slotkin, 
I apologize. I am usually the one that asks the question about 
the role of Qatar and you give me the same answer. And I 
understand what is going on. But I did, I am very, very 
concerned about Maliki and his credibility which to me is 
absolutely zero.
    We have got the folks that are representing Camp Liberty, 
Ashraf, and what has happened in the past and you cannot 
overlook that. But what scares me even more was ISIL, ISIS, and 
the fact that they went in there and they defeated four 
divisions. In the history of the United States Marine Corps, 
the Marine Corps, the U.S., has never had four divisions in one 
place at one time. They had six in World War II. They had three 
on Iwo Jima.
    Since 1775, an organization like that has never, and you 
had four divisions? And you have a group that had pickup 
trucks, AK-47s, and what have you? It just shows that in terms 
of at least from a military person, the total lack of 
credibility in the Maliki government, and obviously they don't 
have any trust in the military in the functioning or lack of 
functioning of federalism.
    So I am very, very pessimistic of the future in terms of 
reconstructing the military, particularly when Maliki and 
whoever is in there, if they are going to continue to go to the 
Iranians for the Revolutionary Guards, the Quds force, et 
cetera, et cetera, et cetera. And with Hellfire missiles 
falling in the wrong hands, I am just very, very nervous about 
this whole thing.
    It has been touched on a little bit, but I think from the 
United States that once again we have to recognize the changing 
geopolitical situation. It has already been discussed about 
Jordan and I think you are absolutely right. If we are not 
ready to defend Jordan or be there for them, I think we are 
going to be in serious trouble. I am a strong, strong supporter 
of Kurdistan. We have to recognize that and the point has been 
made about not one person, military person was killed in 
Kurdistan.
    The other one I want you to--and I have been bloviating, 
but I want to get your take on Turkey on how in the past they 
might have been an influence because they surround this area. 
And Turkey lately, and obviously Turkey is a big, big player 
where they are also a member of NATO, and the fact that some of 
their behavior with the Muslim Brotherhood is very, very scary. 
Could you address that please?
    Mr. McGurk. Turkey remains a close partner of ours. And 
yesterday, in fact, at the State Department, we had almost an 
all-day dialogue with a very senior delegation from Turkey 
about a whole host of issues including ISIL. We recognize 
broadly that in order to really squeeze ISIL, I mean when we 
focused on al-Qaeda and Iraq back in the 2007-2008 time frame 
we called it an Anaconda strategy to squeeze their finances, 
their foreign fighters, everything.
    And it is really three prongs. First, you have to shut off 
the infiltration networks, and Turkey plays a big part of that. 
But Turkey will remind you that a lot of the source countries 
in which global jihadist fighters are coming into Turkey and 
then entering in Syria also have to do their part. We have to 
stop these people before they get on the airplanes, and then 
stop them if they do make it into Turkey, before they get into 
Syria. That is critical.
    Secondly, denying them a safe haven in Syria. And that is 
why we are focused again on training the moderate opposition, 
and finding a way to control space to ISIL and Syria, and then 
helping Iraqis control their sovereign space in Iraq. That is 
extremely difficult, but that is the three-pronged approach 
that we have to try to take against this.
    And the conversations yesterday with the Turks, led by our 
Deputy Secretary Bill Burns and their Under Secretary Feridun 
Sinirlioglu, were focused upon that, and I think we have a 
fairly common understanding of the way forward with the Turks 
on this.
    Ms. Slotkin. I don't think I have much more to add other 
than I think they have been living with the threat emanating 
from Syria for a long time. They are extremely focused on it. 
They are extremely focused on what is happening in Iraq, and as 
a NATO ally we are talking with them every day. So I feel 
confident we know what they are focused on.
    Mr. Cook. Okay. I plan to beat the clock, if you could just 
comment again on the Quds Force, the Revolutionary Guard and 
their influence right now and whether they have replaced the 
American military completely.
    Mr. McGurk. We remain the partner of choice for the Iraqis. 
I think there is no question about that. They have $11 billion 
into the Federal Reserve and our FMS account, including about 
$193 million just last week. Again, I was there during this 
crisis and there was a major vacuum, and Iran has stepped up in 
some ways to fill the vacuum in ways that we made very clear to 
the Iraqis were not particularly helpful.
    Mr. Cook. Okay, thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Cook. I yield back.
    Ms. Ros-Lehtinen. Appreciate it.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman. And welcome to our 
panel. I have to say that in listening to many of your answers 
I hear a lot of aspirations and I share them too, but I am not 
quite sure whether they are realistically achievable any more. 
For example, Ms. Slotkin, you made a pretty forceful statement 
in response to one of my colleagues' questions that there is no 
substitute for a strong central government located in Baghdad.
    Well, Ms. Slotkin, we have been there for 12 years. We have 
poured $1 trillion into the country. We have lost precious men 
and women in fighting there. What, pray tell, do we, how does 
one achieve this strong, central, effective, functional 
government in Baghdad?
    Ms. Slotkin. I think this is what the Iraqis are grappling 
with right now. And as they form their government they will 
have some fundamental questions that they have to answer about 
the future of their state. Brett has talked about some of the 
ideas that are on the table.
    Mr. Connolly. I know. But I guess my question carried with 
it the inference that maybe we need to reassess. The Vice 
President of the United States wrote an op-ed piece before he 
became Vice President, with Leslie Gelb, roundly dismissed at 
the time, in which he said, frankly, what ought to happen in 
Iraq, what is likely to happen as well is the sort of 
segmentation of Iraq into three autonomous zones, a Sunni zone, 
dominated zone, a Shia dominated zone and a Kurdish dominated 
zone.
    Well, looking at the map today that may be looked upon in 
retrospect as a more prescient view than was accepted at the 
time. Maybe we have to give up on the idea, after 12 years of 
trying, on a strong, central, functional government that holds 
sway over the whole country based in Baghdad.
    Ms. Slotkin. I can't speak to the retrospective piece, but 
I can speak to what it would mean right now if somehow we 
decided to give up on a strong government in Baghdad, centered 
in Baghdad, who is in charge in the Sunni dominated area? Some 
very, very scary people. And so while I think the idea may be 
interesting on paper, I just think in reality, based on who is 
in charge in these large swaths of the country right now, it is 
a much less favorable option than having a strong government in 
Baghdad.
    Mr. Connolly. Of course, I take your point. I mean the 
question is whether we should continue to pour blood and 
treasure into that hope. At what point do we recognize that we 
are going to have to at least modify that hope because it is 
not going to happen? Or not going to happen anytime soon, 
realistically. Because if we continue to pursue a policy 
however noble and desirable that is not realistic and is going 
to get us in a lot of pain and difficulty, that is not a good 
foreign policy.
    Mr. McGurk?
    Mr. McGurk. If I could just make one point, Congressman, I 
think what I laid out in my opening testimony is a way forward 
that is focused upon the hard realities on the ground that we 
face now, that is within the fabric of the Iraqi Constitution, 
that can harness their very significant national resources to 
empower local communities in order to deny space to these 
terrorist groups. And that is a model on which recognizes the 
principle of devolution of authority and federalism, which is 
embedded in the Iraqi Constitution.
    Were Iraq to wish to develop more regions such as the 
region that exists in the Kurdish region, there is a process 
for doing that through the Iraqi Constitution.
    Mr. Connolly. But Mr. McGurk, again I agree with you that 
that ought to be how it works. But the Maliki government has 
significantly alienated huge swaths of its own country and in 
the process has opened the door for receptivity to ISIS. That 
is one of the reasons they have had so little difficulty in 
addition to the collapse of the four divisions which we helped 
train and equip.
    But they have lost a huge amount of political goodwill, if 
they ever had it, amongst their own countrymen, and how do you 
restore that in a time frame that stabilizes the situation and 
can forcefully push back ISIS?
    Mr. McGurk. Well, one way to deal with that was over, we 
had to make sure the election happened, and happened on time. 
That is something that we focused very hard on over the last 8 
to 10 months. The election did happen. It was a credible 
election. Again 14 million Iraqis turned out to vote.
    The Iraqis are now forming their government on their 
constitutional timeline. They chose a speaker. That kicked off 
a timeline for 30 days to choose a President. Once there is a 
President there is a 15-day clock to name a Prime Minister, and 
then 30 days to form a cabinet. And we will get through, the 
Iraqis will get through this process along their timeline, and 
they will come out of it with a new government.
    And again we remain hopeful that that government will 
reflect a fairly broad consensus among the principal groups. 
Right now the presidency, for example, is a choice. The Kurds 
are coming up with their nominee for the presidency, and we 
hope to have that done soon, and then that will kick off the 
timeline to choose the Prime Miniser. That happened to be in 
this political vacuum period in which they have to form a new 
government, but once they have a new government it will begin a 
process of a very genuine dialogue about these very important 
issues you face, and I hope that with this committee we can be 
a part of that dialogue and inform them as best we can.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Connolly. Madam Chairman, my time is up. I just hope 
that the State Department and the Pentagon both hear bipartisan 
skepticism. Goodwill, hope you are right, but the skepticism 
being expressed in this committee today is very bipartisan.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. And now we turn 
to Mr. Perry of Pennsylvania.
    Mr. Perry. Thank you, Madam Chair. Mr. McGurk, in violation 
of U.S. and U.N. Security Council sanctions, what material 
support is the Maliki government receiving from Iran currently 
that you know of?
    Mr. McGurk. The question of sanctions under those 
provisions is something we are looking at very closely because 
it is a very complicated question, actually.
    Mr. Perry. All right, then just tell me what kind of 
material support you know of and then we will try to figure it 
out from there.
    Mr. McGurk. Well, it is another question I think I would 
like to maybe follow up with you in a closed session and we can 
discuss it in some detail.
    Mr. Perry. All right.
    Ms. Slotkin, do you know?
    Ms. Slotkin. Sir, I really do think in a closed session we 
can much more specifically answer your question.
    Mr. Perry. All right, I get your point. Well, knowing that 
Iran is supporting the insurgency in Yemen, is the Yemen model 
as sponsored in some sort by the President, is that realistic 
or viable for Iraq? Isn't it fairly complicated, knowing that 
Iran is essentially an adversary, an enemy of the United States 
that we are barely working with on a treaty regarding their 
nuclear program which many Americans, myself included, disagree 
with?
    I mean what position do we put ourselves in and how can we 
trust the Maliki government to move forward knowing they are 
complicit and relying on Iran, and can we expect the folks in 
Camp Ashraf to receive better treatment knowing that they are 
collaborating, the government is collaborating with Iran than 
they are now?
    Ms. Slotkin. So I would say, I want to make sure I 
understand your question about the Yemen model and whether, it 
seems like you are implying that the Iraqi Government is 
completely under the sway of the Iranians.
    Mr. Perry. No, I don't think it is completely under the 
sway. I think that considering the Yemen model as viable in 
Iraq is myopic and irresponsible, and knowing that we are 
working at cross purposes even mentioning that is, kind of 
indicates cluelessness at the point of the administration, in 
my estimation. I just want to get your feeling on it.
    Ms. Slotkin. Again I am sorry. I am not sure I am 
completely understanding your question. If the question is 
could the Yemen model work in Iraq, if that is what you are 
asking----
    Mr. Perry. Is it viable? Could it work? Yes, it could work 
if we had different people in Iraq in power and a different 
circumstance, in my opinion. But that is not the circumstance. 
So is it viable now? Do you see the Yemen model as viable now 
in Iraq?
    Ms. Slotkin. I think, if I understand what you mean by 
Yemen model, meaning working very closely with the central 
government----
    Mr. Perry. Yes.
    Ms. Slotkin [continuing]. On a program, I think that first 
of all, right now we are working with the Iraqis on the ground. 
We have people there that need, our own people that need 
security, and we rely on the Iraqis to provide part of that 
security in Baghdad.
    Mr. Perry. We understand that.
    Ms. Slotkin. I think what we are trying to figure out is 
the answer to that question.
    Mr. Perry. Okay.
    Ms. Slotkin. By sending folks out and understanding the 
Iraqi security forces and whether they are viable.
    Mr. Perry. Seems a little irresponsible to come out with 
those kind of statements when you are trying to understand the 
circumstance. But moving on.
    So Japan and Germany, essentially defeated by coalition 
forces including the United States, probably didn't want us to 
stay if they would have had their choice. And I wasn't around 
then and I suspect you weren't either. But let me ask you this. 
What responsibility does the administration have, understanding 
they disagreed with our actions, the United States Government's 
actions in Iraq, and I am respecting that, but what 
responsibility do they have to secure the gains of the previous 
or any administration? Do they have any? It is an opinion 
question for you.
    Ms. Slotkin. Do the Iraqis have a----
    Mr. Perry. No, our. What is our administration?
    Ms. Slotkin. What is our responsibility? I mean----
    Mr. Perry. Do we have any?
    Ms. Slotkin. I mean we have invested incredible amounts of 
blood and treasure.
    Mr. Perry. Right, right.
    Ms. Slotkin. I mean my husband is an Army officer. We met 
in Iraq. It is an extreme, as a country we have invested so 
significantly in that country. So of course we are invested in 
making sure that it continues as a viable state and doesn't 
become a breeding ground for terrorists.
    Mr. Perry. So having spent time there as I did, do you 
believe circumstances on the ground would be different had we 
maintained a SOFA? And using the excuse, and I see it as an 
excuse that the government couldn't get itself together enough 
to get support for it, we get that. They didn't want us there. 
Well, that is a big surprise. Didn't we have some 
responsibility to make sure it happened? I mean the President 
has got a pen and a phone. If he would have said we are 
staying, what are you going to do about it, what things would 
be different? Do you think things would be different now if we 
would have stayed in some fashion, providing some security, 
providing some intelligence, providing some oversight of a 
fledgling government in a very difficult circumstance that we 
earned a victory for and literally almost installed piece by 
piece?
    Ms. Slotkin. I think that things may have been different, 
but I don't know that we wouldn't be in a similar situation to 
where we are today based on the fact that we still lack 
political accommodation at the heart of it in Baghdad.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Perry.
    And we turn to Mr. Weber of Texas.
    Mr. Weber. Thank you. Mr. McGurk, you said, ``Our objective 
is to ensure that ISIL can never again gain safe haven in 
western Iraq.'' In your opinion, has ISIL, ISIS, whatever we 
want to call them, today operated with lightning speed?
    Mr. McGurk. It depends on how you characterize lightning 
speed, Congressman. But----
    Mr. Weber. In your opinion, would you characterize that as 
lightning speed?
    Mr. McGurk. Their advance through Mosul, I think, even 
caught them off guard, frankly.
    Mr. Weber. So Baghdadi could have taught Hitler something 
about blitzkreig, wouldn't you agree?
    Mr. McGurk. I am not sure quite how to answer that question 
but----
    Mr. Weber. Okay.
    Mr. McGurk [continuing]. ISIL has proven to be a very 
effective, capable----
    Mr. Weber. Do you remember how Ted Deutch asked you today, 
how confident are you the Shiites can withstand repeated 
attacks? In your exchange with him, do you remember that 
question?
    Mr. McGurk. I believe so, yes.
    Mr. Weber. Okay. Here is my question for you. How confident 
are you that Camp Liberty can withstand more attacks?
    Mr. McGurk. Again, I want to mention I visited Camp Liberty 
a number of times.
    Mr. Weber. Have you ever stayed there?
    Mr. McGurk. Well, I have not stayed overnight there, but I 
have stayed, and I have lived in trailers under repeated rocket 
attacks, so I do know what that feels like, and I have 
discussed that with them.
    Mr. Weber. Do you think they will all be killed before or 
after Baghdad falls?
    Mr. McGurk. Again Congressman, I think that is a bit of a 
hyperbolic question, so all I can say is that they are----
    Mr. Weber. But you don't think it is a real threat?
    Mr. McGurk. They are located on the airport facility. They 
are located very near where our people are located and watched 
very closely.
    Mr. Weber. You don't think it is a real possibility?
    Mr. McGurk. Again, I am happy to come address the specific 
security apparatus we have at the airport during----
    Mr. Weber. Okay, well, do we just write them off?
    Mr. McGurk. Certainly we don't write them off. It takes a 
substantial amount of our time and energy every day focusing on 
the question of the MEK, and we have a senior advisor at the 
State Department who does this full time.
    Mr. Weber. In your remarks earlier you said, let me tell 
you why this matters, one of the statements you made. Does Camp 
Liberty matter?
    Mr. McGurk. Yes, of course it matters. And that is why, 
again, we have a senior official at the State Department 
dedicated to this issue full time reporting to the Secretary, 
and he will be on a plane tonight to----
    Mr. Weber. Does it seem odd to you that we have got some, 
in the current calamity on the border, this crisis on the 
border we have got some 60,000-plus crossing our southern 
border and getting ``refugee status'' or asylum over here, but 
we can't get the same thing for Camp Liberty? Does that seem 
odd? Is that ironic?
    Mr. McGurk. As I think, Congressman, the administration has 
made a decision to bring in up to 100----
    Mr. Weber. Oh, they have made a decision all right.
    Mr. McGurk [continuing]. Up to 100 residents of Camp 
Liberty into the United States, and we believe that is a 
significant decision which also should enable other countries 
to do the same.
    Mr. Weber. Do you see all the yellow jackets behind you? 
Have you seen those? Okay. Do you think that is an important 
issue for them?
    Mr. McGurk. Again, it is a very important issue to us.
    Mr. Weber. Well, the actions don't seem to follow up that 
idea. You and I talked back on the February 5th hearing about 
T-walls and they began to be put in place for a short time and 
then seemed like they ended pretty quickly thereafter.
    I would say not only is it an important issue for those who 
are here to support some action on the administration's part to 
help Camp Liberty, but obviously it is also important for Camp 
Liberty, and I think the administration has let them down. 
Somehow we need to make that a priority. What is the answer for 
those Camp Liberty residents? How do we make this a priority 
before it gets so bad that there is no hope for them? What is 
the answer to that?
    Mr. McGurk. We are determined to do everything we can to 
get them out of Iraq. Their safety will depend on their getting 
out of Iraq. And that is why we have to find third countries to 
take them. We have made the decision to take in 100.
    Mr. Weber. Should we encourage them to go over to Mexico 
and come up through the southern border?
    Mr. McGurk. Again, if the Mexicans were willing to take a 
number of residents we would certainly support that decision, 
as we would any other country around the world. That is why we 
literally have a senior adviser who is focused on this 
question. He is on an airplane tonight. He has gone to 
countries throughout Europe, Scandinavia, East Asia, 
everywhere, and we are making some progress.
    But we need to keep at it, and we need the support from the 
international community. That is why we have put $1 million 
into a new U.N. trust fund, so even countries that might not 
have the resources are able, and able to take these people in 
and bring them to safety.
    Mr. Weber. Ms. Slotkin, I have 30 seconds left. What do we 
need to do?
    Ms. Slotkin. Sir, we are trying to figure that out right 
now.
    Mr. Weber. You are trying to figure that out? How long have 
they been over there?
    Ms. Slotkin. They have been over there since mid to late 
June. And I believe it is important to have a prudent, 
thoughtful, responsible approach before we just jump in. As 
someone who has worked----
    Mr. Weber. It is not going to be very prudent if they all 
get killed before we do something now is it?
    Ms. Slotkin. Sir, I think that it is critical that we have 
a thoughtful regional approach to this problem before we jump 
in.
    Mr. Weber. Well, I hope you will encourage the 
administration to get real thoughtful real fast.
    Madam Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Weber.
    And pleased to yield to our new member of our committee, 
Mr. Clawson of Florida.
    Mr. Clawson. Those from Camp Liberty, thank you for coming. 
You have made your point with the newest congressperson here. 
The two of you, thank you for coming, and thank you for your 
service to our country. And I am sure that this is not an easy 
moment for you, and it is never easy to be the point of the 
spear in this kind of situation, so I respect you for coming 
and speaking straight and ask you to speak straight to me too.
    To use your words, Mr. McGurk, there is some hard realities 
here, right, and I cannot overestimate those realities. People 
are dying and these are people that don't deserve to die. And 
we have been there for awhile. It feels like a perilous 
situation to me as our enemies consolidate friends, allies, and 
territory which will certainly someday threaten our friends--
Israel--and maybe even us, if I am getting the drift of what is 
going on here as the newcomer.
    And then in that backdrop it feels like we have bet on a 
team that is divided, right, maybe artificial, artificially put 
together, and a coach that we and you as an administration 
don't have full confidence in. That sounds like a bad situation 
for us to be in. As I hear the talk today, it also feels that 
this lack of leadership therefore causes a deterioration in 
safety, and where there is a deterioration in safety there is 
even a deterioration in culture. People losing lives in their 
own culture feels like a bad situation and it threatens us in 
the longer term, if I am capturing correctly what is going on 
here. So in that vacuum of chaos, you all are making decisions 
that will affect us eventually and people on the ground 
immediately.
    For my constituents, I think what would be good would be 
two things. Number one, each of you give me a very brief 
summary for those that aren't experts, that don't know all the 
missiles, that don't know all the things involved here. What is 
your summary way forward? Where is the administration taking 
us? I don't want to get into partisan bickering, I just want to 
understand where we are going and where we will be 6 months 
from now.
    And then secondly, I would like to understand what can this 
committee can do to help save lives and protect people? I am 
not interested in assigning blame. I think, Mr. McGurk, you 
said it best. History will sort that out. I think it is more 
helpful if you tell us where we are going, and if we like that 
path how we can help to get us there. In laymen's terms so I 
can understand it and therefore take it to my constituents. I 
know this question is a little different than most, but does it 
make sense to you two?
    Mr. McGurk. Yes, Congressman, I thank you for the very 
thoughtful question, and again, I think explaining this to your 
constituents is critical about why this matters. And a lot of 
the history on Iraq, I think it can have a clouded view upon 
why this really continues to matter to the United States.
    Mr. Clawson. But I want you to look forward with me.
    Mr. McGurk. So let me just say three things. First, when 
this crisis began, as I stated in my written testimony, we 
immediately had to get a very precise, very accurate eyes-on 
picture on the ground. And I just want to speak from my own 
firsthand experience.
    President Obama immediately ordering a surge of 
intelligence assets, moving an aircraft carrier into the Gulf, 
ordering special forces to go on the ground to get an eyes-on 
picture. That was all done--there has been a lot of talk about 
the 2011 SOFA. That was all done under another permanent 
agreement we have with the Iraqi Government called a Strategic 
Framework Agreement. That is a permanent framework agreement 
which allows us to assist the Iraqis in ways that protect our 
interests. That is number one. We could get a clear picture of 
what is happening on the ground. We are getting that now, and 
it will become clearer over the days ahead, particularly 
through the assessment that is being undertaken by the 
military.
    Second, we had to get the political process on track. Iraq 
just had an election. Fourteen million Iraqis turned out to 
vote, almost a 62-percent turnout. A higher turnout than most 
elections all around the world. That showed the democratic 
aspirations of the Iraqi people. We can't let them down. They 
want to see a new government formed, a new Parliament has just 
convened in Iraq with 328 members. They are now working to form 
a new government. We have to be behind them as they do that, 
and encourage them to do so. And as soon as that new government 
is stood up, and it will be stood up, we need to embrace it and 
give it every chance to succeed under our Strategic Framework 
Agreement because it is in both their interests and ours, and 
it is also in the interest of all that we have sacrificed in 
Iraq.
    So that in a nutshell, we have to get a better picture on 
the ground, better eyes on to know exactly what is happening 
and we are doing that. Secondly, we have to get the political 
process on track which reflects not just the political elites 
but the aspirations of 14 million Iraqis who voted. And once 
that government is stood up we need to embrace it, and give it 
every chance to succeed.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Clawson. So in summary, we wait until the new 
government is formed and then give that government full 
support?
    Mr. McGurk. We are not waiting. We have people on the 
ground now doing significant things under the Strategic 
Framework Agreement, which exists with the future Iraqi 
Government and the current one and the one before that.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. McGurk. So we have people on the ground now doing----
    Ms. Ros-Lehtinen. And now we will turn to Mr. Marino of 
Pennsylvania, and after that Mr. Collins of Georgia.
    Mr. Marino. Thank you, Chairman. Good afternoon, the two of 
you. Thank you for being here. Unfortunately, and I don't mean 
to be facetious, but you two have drawn the short stick to be 
here and put up with us. And as I tell individuals that come 
and testify, you should be accommodated for that in your 
reviews. It is a tough group here.
    But I think we all have one intention in mind, it is just a 
different way that we seem to want to go about it. The issues, 
there is no question, complex is not enough of a word to 
explain what is going on over there. And I understand that the 
two of you have been over in Iraq and so you know firsthand 
what things are like. I visited there twice, short periods of 
time.
    Ms. Slotkin, Mr. McGurk, you can respond to this if you 
would like to, several moments ago you stated that there would 
be no difference if troops were left in Iraq, 10,000, just pick 
a number, but troops left there would have no impact on what is 
taking place in Iraq now to repel ISIL. Did I understand that 
correctly?
    Ms. Slotkin. So let me clarify because this just came up a 
couple of minutes ago as well. So it is not that there would be 
no difference. I don't know exactly how it would have been, but 
I know that it wouldn't have forced the Iraqis into a political 
solution that only they can make.
    Mr. Marino. None of us know how it would have been, but I 
am glad you clarified the political statement.
    Ms. Slotkin. It is the political piece and that is 
critical.
    Mr. Marino. Yes, it is critical. But I somewhat disagree 
with that assessment because I have read and studied this 
extensively, probably not nearly as up to date as the two of 
you are, but I have been reading military reports, listening to 
experts from generals to commanders to tacticians, et cetera, 
and they disagree with that assessment.
    If there would have been troops left there--and make no 
mistake about it, a lot of this is Maliki's fault. But I was 
reading an article in The New Yorker that said if troops would 
have been left there, first of all, it would have had an impact 
on Maliki that they probably could have clipped his wings on 
preventing him from doing what he should have done and didn't 
do, but it also would have an impact on ISIL as well.
    So could you please tell me what the difference is now 
since President Obama has sent some troops over there now? If 
not leaving troops there would really not have made a 
difference, what is the intent then behind sending troops now? 
Would that not make a difference? Do you understand my 
question?
    Ms. Slotkin. I believe so.
    Mr. Marino. All right, thank you.
    Ms. Slotkin. First, I just want to clarify that we have 
sent in an additional, it is up to 775 troops.
    Mr. Marino. Right.
    Ms. Slotkin. 475 of that total are for the security of our 
people and our facilities.
    Mr. Marino. The Embassy, the airport, et cetera.
    Ms. Slotkin. Exactly. The other 300 are there to assess and 
answer those very questions, right. And I think the important 
thing that has changed since even just a year ago is the threat 
from ISIL that that poses to us, to our allies, to our 
partners, and the importance that puts on pushing back on them.
    So I think if your question is what more could we do, we 
should have left troops and now we are considering putting them 
back in, we are trying to figure out whether additional folks 
on the ground would help in that fight.
    Mr. Marino. And I am ambivalent on this as well because I 
don't want to see another American come home in a body bag. I 
have been on the ramp and saw the ceremonies where two people 
were sent back to my state and it is something that I do not 
want to experience again. But we did have the civil war under 
control by the time the troops left Iraq. Do you agree with 
that assessment?
    Ms. Slotkin. I agree that the sectarian violence that had 
been raging in Iraq at the height of the war was significantly 
diminished, significantly, by the time that we departed.
    Mr. Marino. Mr. McGurk, do you have any comments on my 
questions?
    Mr. McGurk. I just want to say, first, it is a tremendous 
honor to be before this committee all the time. The breadth of 
this committee, and the veterans, and everything else, it is a 
tremendous honor to be here and to discuss this with you.
    Mr. Marino. Thank you.
    Mr. McGurk. And I think again, 2011, we just, the 
requirements to get something through the Iraqi Parliament was 
not possible, but we still had the Strategic Framework 
Agreement. And where we are now is that we have been fully 
embraced to do training, to do advising, to do all sorts of 
things, and what we are undertaking at the direction of the 
President is a very careful review of what we can do to be most 
effective. So I think, hopefully, in our future conversation, 
we will have more a concrete way forward on terms of what we 
have decided will be the most effective because that is the 
conversation that is ongoing now internally.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Marino. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Marino.
    And Mr. Collins of Georgia is recognized.
    Mr. Collins. Thank you, Madam Chair, I appreciate it. And 
looking back, I am not going to do that especially with my 
experience, but I will just say this in reference to my friend 
from Pennsylvania. I have been there when they were put in body 
bags, and I am appalled at the fact that we did so little in 
the SOFA agreement and do not accept the political answer that 
politically we couldn't have got it through. Because also there 
was a political issue here at home in which the President had 
made a promise to get out.
    And so there was political aspects on both sides, so let us 
not kid each other at least in this committee that we are doing 
that. So I will be honest about that and I won't go back. But I 
want to go forward and look at this, because that is very much 
of a concern for me for the price that, madam, you shared, 
maybe your own husband in being over there. We spent a lot of 
blood and treasure, and to leave it like it is now is very, 
very concerning for those of us who were there.
    Going forward is a concern for me and one other part is the 
March, in Iraq. Iran has used its close relationship, frankly, 
with Iraq and it was growing toward the end anyway to use 
airspace to fly weapons to Hezbollah and other partners in 
their fight in Syria. The U.S. has time and time again asked 
Iraq to stop allowing Iran to use their airspace. What is the 
most recent activity the Obama administration has taken to have 
Iraq cease these flights?
    Mr. McGurk. Congressman, we continue to discuss that issue 
in some detail with the Iraqis. It is a very complicated 
question because it is unclear in terms of what is on specific 
flights, and the Iraqis aren't going to completely shut down 
their airspace. It is an ongoing conversation. Again it is a 
conversation that contains some sensitive information, which I 
would be happy to follow up with you in a different setting.
    Mr. Collins. And I agree, and there is a lot of 
conversation that might not be needed to have here in an open 
forum such as this. But I will also say there is a lot of 
things we are dealing with the Iranians on right now that there 
could be some issues that we could use and pressure points and 
other sides that I am very concerned about their continued 
involvement in this basically messed up soup of Syria.
    I want to move though to the AUMF. I want to move to the 
President's 775 men, which 475 of course are there for 
additional Embassy security and advisors to the Iraqi army. 
Under what authority is the President deploying this force?
    Ms. Slotkin. So as part of our, the 775 in total were 
notified in the three War Powers Notifications that came over 
to the Hill.
    Mr. Collins. All right. Using in, so Article II still 
adheres to the War Powers Resolution. They have been there for 
roughly 30 days at this point. After we are at the 60-day mark, 
which authorizing force will the President use? Is he going to 
try and use Iraqi AUMF or is he going to try to use the GWOT 
AUMF? Which one is going to, because I mean which one are we 
looking to use? Catch one of you.
    Mr. McGurk. I will just say, Congressman, exactly what the 
President said, that any future decisions regarding our 
military posture in Iraq will be done in very close 
consultation with the Congress. And obviously one of those 
issues to be discussed will be the specific legal 
authorizations through which the administration determines the 
President has that authority.
    Mr. Collins. Okay, so at this point in time though the 
question would had to have come up that we are about 30 days 
away from using this. So the question would have had to at 
least be we have thought about this, which, are you going to 
come back and ask for a new authorization? Are you just going, 
this at some point in time has to be asked, and basically just 
saying, well, we will think about in 30 days, frankly, is not 
satisfactory to me.
    Mr. McGurk. Again, Congressman, there is an number of legal 
authorities through which the President is able to deploy 
military force around the world. The specifics in this case are 
something that will be determined both within the 
administration, and also in very close consultation----
    Mr. Collins. Well, let us discuss the Iraq AUMF for just a 
second. If he intends to use the Iraq AUMF, at what point does 
the Iraq AUMF without congressional repeal or at some time in 
not using it, when is it after this, this administration chose 
to withdraw in 2011, the authorization is still valid, or are 
we just going to keep it for ad infinitum or are you going to 
go to the GWOT? I think there needs to be, this is an honest 
question that needs to be discussed. How long are we going to 
have that on the table?
    Mr. McGurk. It is also an issue, it is a legal issue which 
I would defer to the lawyers in the administration to provide 
specific answers.
    Mr. Collins. Well, I am sure they are not going to beat 
down our door to come talk about it at this point, so that is 
why you are here unfortunately for that. And like I said, this 
is just concerning. I mean again I believe we left with no real 
strategy. We are now having to deal with it. And for those of 
us who did deal with it on the ground are very frustrated about 
it.
    And one last thing before, again I appreciate you coming up 
to the Hill. We are just going to have a difference of opinion. 
I know you are limited by what you can or cannot say, which is 
understandable but not satisfactory. But to the Camp Liberty 
supporters in Iraq, look, I want to tell you each, the State 
Department and any other agent, the United States needs to 
continue to employ all necessary means to protect those there. 
It is our obligation, it is our right.
    And frankly, studying it forever is not the option. That 
needs to stop. The next time I hope someone comes to this 
committee they are actually saying, here is what we are doing 
not that we are looking at it. Because that is very 
disingenuous in a lot of ways because we have been looking at 
it for a long time now.
    But with that I think there is a lot of big questions here, 
Madam Chair, that are left, especially concerning use of force. 
And I would like to have a healthy discussion about that and 
not just a, well, we will get to it later because there is a 
lot of legal options. I am an attorney as well, so yes, there 
is a lot of legal options here, but we need to decide what are 
we going to do it under and not just make it up on the fly 
because we are not sure what to do.
    Madam Chairman, I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Collins. Thank 
you, Mr. Engel. Thank you for the panelists and the audience 
and the media. With that our committee is adjourned. Thank you.
    [Whereupon, at 12:54 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



[Note: Material submitted for the record by the Honorable Dana 
Rohrabacher, a Representative in Congress from the State of California, 
entitled ``Iraq Threat Assessment,'' is not reprinted here but is 
available in committee records.]

                                 <all>

</pre></body></html>
